<html>
<title> - U.S. POLICY OPTIONS IN POST-ELECTION PAKISTAN</title>
<body><pre>[Senate Hearing 110-627]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-627
 
             U.S. POLICY OPTIONS IN POST-ELECTION PAKISTAN

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               __________

                           FEBRUARY 28, 2008

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
45-593 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     5
Negroponte, Hon. John D., Deputy Secretary of State, Department 
  of State, Washington, DC.......................................     6
    Prepared statement...........................................     8
    Responses to questions submitted for the record by Senator 
      Russell Feingold...........................................    43

                   Material Submitted for the Record

Barrasso, John, U.S. Senator from Wyoming, prepared statement....    32
Boxer, Hon. Barbara, U.S. Senator from California, articles 
  submitted:
    Pakistani Military ``Misspent up to 70% of American Aid''--
      from The Guardian, Feb. 28, 2008...........................    45
    CRS Report for Congress, ``Pakistan's 2008 Elections: Results 
      and Implications for U.S. Policy''--April 9, 2008..........    48
    Executive Summary from ``Terror-Free Tomorrow: The Center for 
      Public Opinion''...........................................    69
    ``Musharraf: Pakistan Isn't Hunting Usama''--from 
      FOXNews.com, Jan. 23, 2008.................................    71
Obama, Hon. Barack, U.S. Senator from Illinois, prepared 
  statement......................................................    42

                                 (iii)

  


             U.S. POLICY OPTIONS IN POST-ELECTION PAKISTAN

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Feingold, Boxer, Bill 
Nelson, Menendez, Cardin, Lugar, Hagel, Corker, Isakson, and 
Barrasso.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. Hearing will come to order.
    Welcome, Secretary. Appreciate having you here.
    I'm going to make a brief opening statement, then turn it 
over to my colleague Chairman Lugar, and then we'll begin to 
move.
    And I say good morning to my colleagues.
    Ten days ago, Pakistan--in Pakistan, three members of this 
committee witnessed a truly extraordinary thing; and the world 
observed, I think, an outcome that was better than anyone 
really had anticipated, at least in my perspective. People went 
to the polls and overwhelmingly cast their votes for democracy, 
moderation, and the rule of law. It's not merely that the party 
of President Musharraf was clearly, clearly outvoted by the two 
major competing parties, but there was--well, the least noted 
outcome election was, the religious party suffered serious 
losses, which I think was a significant, significant expression 
of the will of the people of Pakistan.
    Senator Kerry, Senator Hagel, and I were privileged to 
observe this election. We met with a wide cross-section of 
Pakistanis, in and out of government. We met with the leaders 
of the three largest political parties, two of whom are 
expected to form the coalition that leads Pakistan to its first 
truly civilian government in nearly a decade.
    We met with the wife of the imprisoned leader of the 
lawyers' movement, a brave woman carrying the message of those 
judges and attorneys who were arrested for the crime of 
practicing law. We met with Pakistani journalists, human rights 
advocates, and other members of the civil--of civil society, 
many of whom had faced detention and physical intimidation in 
recent months.
    And we were the first foreign visitors to meet with 
President Musharraf the day after the election, relatively 
early that morning. He promised to honor the message delivered 
by the Pakistani people, and, quite frankly, he was--there was 
a bit of nobility in the way he addressed us. He walked into 
the room, said, ``The people have spoken,'' and he would abide 
by the judgment. And when asked about issues relating to the 
Supreme Court and other contentious issues, he said, ``That 
will be for the Parliament to decide,'' and he indicated that 
he was willing to--my phrase, not his--step back into the roles 
of the President, as opposed to the Prime Minister. And, under 
the Constitution, as all my colleagues know, the vast power 
under that Constitution is in the hands of the Prime Minister, 
not the President. It was encouraging, to say the least. And I 
take him at his word, and I hope the administration will hold 
him to his word.
    The Pakistani people have expressed a very clear vision for
what they want their nation to look like: Moderate, democratic, 
grounded in the rule of law, with leaders who provide good 
governance and the basic necessities for all citizens of 
Pakistan.
    It's in America's vital national interest, to say the 
least, to help Pakistan make this admirable vision a reality 
and this transition smooth. Why? Well, because Pakistan, along 
with its neighbor, Afghanistan, could provide the ballast of 
moderation to stabilize the Muslim world in that part of the 
world, or it can become the generator of violent radicalism 
that would directly threaten our own security, as well as the 
security of the people in the region.
    The Afghan-Pakistan border region is where the 9/11 attacks 
were plotted, it's where most attacks in Europe since 9/11 have 
originated. It's where Osama bin Laden lives and his top 
confederates enjoy safe haven, planning new attacks. And it's 
where we must urgently, in my view, shift our focus to the real 
central front on the so-called war on terrorism, using the 
totality of American strength, not merely our military, which 
is incredible. I know all of you have traveled abroad in the 
last 3 or 4 years, seeing these kids, the stuff they're doing, 
the authority they're given--young captains, a young Navy 
commander out in a PRT; it's astounding, the authority he has 
and the judgment he's exercised. I sat down, Dick, and he laid 
out for us--I literally--I'm not being facetious--I could have 
been in a graduate class at one of the great universities--he 
explained the tribal allegiances, the history of the tribes, 
the way in which they function. I mean, these kids--these guys 
and women, they are truly, truly, truly amazing. And I'm not 
being solicitous. It really is a great, great asset we have. 
But, it is not the totality of the U.S. arsenal, and it's not--
but it's been relied upon more than any other part of our 
arsenal. Our ideas matter, too.
    The border area between Pakistan and Afghanistan, in my 
view, remains a freeway for fundamentalism, with the Taliban 
and
al-Qaeda now finding sanctuary on the Pakistani side, and where 
suicide bombers they recruit and train wreak havoc upon 
Afghanistan and, I predict, increasingly, within Pakistan.
    Pakistan's cooperation in the fight against extremism is 
critical to our success in Afghanistan, but that cooperation 
has been, in my view, sporadic, at best. The reason is that, 
until recently, the terrorists we were fighting and the 
extremists the Pakistanis fear, in my view, are not one and the 
same. Islamabad's main concern is the indigenous militants in 
the Federally Administered Tribal Areas--Mr. Mehsud, in 
particular. Success of Pakistani Governments have taken turns 
fighting them, appeasing them, playing one militant group 
against the other, or using them to make trouble in Kashmir, on 
its eastern border, or in Afghanistan, on its western border.
    This different focus, the Pakistanis, versus our focus on
al-Qaeda, in particular, and Taliban, second, I think, is a 
reason for some of the disconnect that has existed, in terms of 
how we view, ``the war on terror'' in that region. This 
different focus is why, in my view, President Musharraf decided 
to divert Pakistani resources from fighting al-Qaeda and the 
Taliban to keeping his political opponents at bay. It's why, in 
my view, when Musharraf concluded that we were not serious 
about finishing the job in Afghanistan--and that's not a knock 
on the military, that's a judgment that some of us have made, 5 
years ago, when we diverted resources badly needed in 
Afghanistan to Iraq and left, in my view, Afghanistan somewhat 
bereft of the needed resources in order to conduct this war. 
And Musharraf, in my view, observed that. And, as I said to 
General Musharraf and others--my first visit to Afghanistan, 
over 6 years ago, I remember meeting with a British two-star, 
and I asked the British two-star, I said, ``How long will your 
Parliament allow you to stay?'' And he said ``We Brits have an 
expression, Senator, as long as the big dog is in the pen, the 
small dog will stay; when the big dog leaves, the small dogs 
will, too.'' The big dog left Afghanistan. America left 
Afghanistan, in terms of what was really needed in Afghanistan, 
in my view. And I believe that generated a conclusion on the 
part of Mr. Musharraf that we weren't likely to finish the job 
in Afghanistan, and he began to cut his own deals with 
extremists in Pakistan. It's why, in my view, Pakistan could 
concentrate most of its military might on the Indian border, 
not on the Afghan border. It's why the Pakistani people have 
not supported, based on their polling data, what we call--what 
we call the ``war on terror'' in that region.
    But, now the monster that Pakistan's intelligence service 
helped create is turning on its master. Today's enemy No. 1 is 
Baitullah Mehsud--an indigenous militant--who is taking the 
fight beyond the FATA, the Federally Administrated Tribal Areas 
in the mountains, and is likely behind the assassination of 
Benazir Bhutto. Mehsud is independent of the Afghan Taliban and 
the al-Qaeda in Pakistan, but he is giving them sanctuary, and 
they are helping train his forces. As Islamabad awakens to this 
new reality, I think there's an opportunity to put Pakistan and 
Afghanistan and the United States on the same strategic page.
    Some argue that, imperfect as Musharraf has been, the 
civilian leaders of last week's elections return to power will 
be even worse partners in fighting terrorism and fostering real 
progress in Pakistan. I disagree, if we change our policy.
    For Pakistan, nothing is more important than giving the 
moderate majority a clear voice and a stake in the system, in 
my view, and that's what the election was about, in my view. 
Without that, dissent gets channeled underground and, over 
time, moderates make common cause with extremists. We've been 
down that road before, in my view. It's not absolutely 
analogous, but it's similar. We went down that road in Iran. 
And it leads to nowhere. Nowhere good.
    With this election, the moderate majority has regained its 
voice. The United States should seize the moment to move from a 
policy based on a personality--Mr. Musharraf--to one based on 
an entire country--Pakistan. I believe we should, first of all, 
triple nonmilitary assistance--and, to put it in perspective, 
nonmilitary assistance is roughly $500 million a year now--
triple nonmilitary assistance, and make it clear we plan on 
sustaining that for a decade. This aid should be focused on 
schools, roads, and clinics, and expanding development in the 
tribal areas.
    Second, we should give the new government, once it's 
formed--if it is formed consistent with democratic principles 
and it is a transition that we expect--a democracy dividend of 
$1 billion in annual assistance to jump-start its progress.
    Third, we should demand transparency and accountability in 
the military aid we continue to provide. It's one of the things 
I want to talk to you about, Mr. Secretary.
    At the same time, we have to recognize that, even as 
Pakistan develops the will, it still lacks the capacity. One of 
the things we came away with--not speaking for my colleagues--
but, one of the things I came away with was, notwithstanding, 
whether or not the Pakistani military and the political 
establishment had the will to take on extremists in the FATA 
and in the territories, it does not have the capacity--it does 
not have the capacity to do it. And so, at the same time, as I 
said, we have to recognize and help develop the will, we have 
to help them with their capacity, which is a complicated 
process, I acknowledge.
    Its military is designed to fight a conventional war with 
India, not to conduct counterinsurgency operations in the 
tribal areas. So, we should make it a priority, as our military 
is attempting to do, to help train Pakistan in--to reorganize 
its military, not in its entirety, but to reorganize its 
military to be better suited to deal with those very areas.
    Last, in my view, we should engage the Pakistanis on issues 
important to them, rather than just those important to us. For 
the last three decades that I've been here, the fact is that 
our relations with Pakistan has been basically transactional, 
and that's how the Pakistanis view it and understand it. And I 
believe they wonder--that moderate majority wonders whether or 
not we are looking for a long-term relationship based on mutual 
interests. I think we have to demonstrate to the people of 
Pakistan that ours is a partnership of mutual conviction, not 
merely of American convenience, that we care about their needs 
and progress, not just our own interests, narrowly defined. 
That happens to be, in my view, the best way to support--to 
secure the support of the Pakistani people and their 
democratic-elected leaders, for our priorities, starting with 
the fight against al-Qaeda and the fight for Afghanistan.
    Our witness today is one of the most eminent members of the 
administration. He is Deputy Secretary of State John 
Negroponte, who has taken on challenges as diverse as serving 
as Ambassador to Iraq, to the National--to Director of National 
Intelligence.
    Mr. Ambassador, welcome. It's a delight to have you here.
    And let me now yield to Chairman Lugar for his opening 
statement.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. And 
I congratulate you and Senator Hagel, Senator Kerry, on, 
really, an extraordinary mission of observing the election, 
but, beyond that, your advocacy, as represented in your 
statement this morning.
    I join you in welcoming our friend, John Negroponte.
    Pakistan has long been one of the most strategically 
important nations to the United States. Its efforts against 
terrorism within its borders, its stewardship of its own 
nuclear arsenal, its relations with other nations in the 
region, are truly critical to global security.
    The situation in Pakistan is more positive than many of us 
had anticipated before the recent election. Although the 
election campaign and the voting had a number of serious 
problems, I share the assessment that the outcome at least 
broadly represents the will of the Pakistani people.
    The election appears to have restored a rough balance of 
power in the country, with the party of the late Benazir 
Bhutto, the Pakistan People's Party, the party of former Prime 
Minister Nawaz Sharif, the Pakistan Muslim League, each winning 
a large number of parliamentary seats. The parties have agreed 
to join together to form a government. And the supporters of 
President Musharraf did not fare well.
    Equally important, the voters in the North West Frontier 
Province repudiated extremism by voting out the fundamentalist 
religious parties who came to power in 2002, replacing them 
with the secular opposition. This is a return to normalcy in 
that area, and, I hope, a sign that Pakistanis will 
increasingly reject the extremism that poses as much a threat 
to their interest as it does to the United States interest in 
the region.
    These changes provide an opportunity for the United States 
to recalibrate its policy toward Pakistan. The Bush 
administration has been criticized, in Pakistan and by some in 
this country, for focusing his policies too narrowly on 
President Musharraf, who siezed power in a coup, refused to 
respect democratic institutions and the judiciary, and only 
very recently resigned his post as leader of the military. The 
administration should broaden its scope and engage with the new 
political actors on stage, and reach out to the general public 
of Pakistan.
    If Pakistan is to break its debilitating cycle of 
instability, it will need to achieve progress on fighting 
corruption, delivering government services, promoting broad-
based economic growth. The international community and the 
United States should support reforms and contribute to the 
strengthening of Pakistani civilian institutions. And I commend 
the chairman for his specific suggestions as to how that might 
be implemented.
    Part of our recalibration should involve revisiting the 
issue of foreign assistance, in particular. We should carefully 
reconsider both the amounts we are providing and the goals we 
are hoping to achieve in Pakistan. Establishing reconstruction 
opportunity zones in frontier regions, continued investment in 
important sectors, such as education, and efforts to 
restructure our military assistance in Pakistan, are all steps 
in the right direction.
    More immediately, the United States could demonstrate its 
regard for the rule of law by encouraging the new government to 
reverse or rescind the actions against the media and judiciary 
that were taken during the state of emergency last year. The 
United States previous reluctance to press President Musharraf 
on these matters has fueled doubts within Pakistan about our 
commitment to democratic principles. The Bush administration 
should engage the two new government parties to continue our 
cooperation in the fight against terrorism, al-Qaeda, and the 
Taliban. However, U.S. interests are neither one-dimensional 
nor short term, and bilateral cooperation must also address 
economic and social challenges throughout the country. 
Otherwise, our security goals are unlikely to be reached.
    While some in the new Pakistan Government may favor new 
tactics in the battle against al-Qaeda, the Taliban, or other 
extremists, the leaders of both parties appreciate the grave 
threat that these elements pose to Pakistan's internal 
security, and the United States should work with the parties to 
achieve agreement on a strategy for fighting extremism and 
advancing Pakistan's broader national interests. We should make 
it clear to the people in Pakistan that our interests lay not 
in supporting a particular leader or party, but in democracy, 
pluralism, stability, the fight against violence and extremism. 
These are values supported by a large majority of the Pakistani 
people.
    I thank you, Mr. Chairman, for allowing me to make this 
comment and to welcome the witness.
    The Chairman. Thank you very much, Mr. Chairman.
    Mr. Ambassador, the floor is yours.

   STATEMENT OF HON. JOHN D. NEGROPONTE, DEPUTY SECRETARY OF 
           STATE, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Negroponte. Thank you, Mr. Chairman.
    I have submitted a longer statement for the record, but 
would like to make some brief summary remarks.
    Thank you for inviting me here to discuss recent 
developments in Pakistan. Let me, first, underscore that the 
stakes remain very high in that country. Successful American 
engagement with a stable and democratic Pakistan is vital to 
our national security interest. Pakistan has been indispensable 
to our worldwide struggle against radical terrorist groups. As 
Afghanistan's neighbor, Pakistan plays a pivotal role in the 
coalition's war effort there. Without peace and stability on 
the Pakistani side of the border, success in Afghanistan will 
prove elusive, its future will be decisive, too, in the search 
for stability in South Asia, a region of vastly increased 
importance to the United States.
    There is a common United States and Pakistani interest in 
Pakistan's success, in the robust and multifaceted fight 
against violent extremism, focused on democracy and economic 
development, as well as on security cooperation. We intend to 
pursue that common interest vigorously with whatever government 
emerges from the election.
    Pakistan, as you noted, took another big step toward 
civilian democracy on February 18, holding successful 
parliamentary elections under challenging circumstances. I 
thank Senators Biden, Kerry, and Hagel, of this committee, and 
Representative Sheila Jackson Lee, for their interest in 
Pakistan's democratic progress. You were in Pakistan on 
election day, observing polling places and talking to political 
leaders, and I believe your presence helped underscore, for the 
Pakistani people, the importance we place on their democratic 
progress.
    The election outcome proves that moderate prodemocracy 
parties are the heart of Pakistan's political system, and that 
religious-based politics have no hold on the voters. While not 
perfect, the elections reflected the will of the voters, who 
have embraced the results. Over 70 Pakistanis lost their lives 
on election day, and we regret the violence that led to those 
deaths. I think it is fair to say, however, that the violence 
could have been worse. The Pakistani people refused to be 
intimidated by a wave of fatal terrorist attacks prior to 
election day. In fact, they voted in higher percentages on 
February 18 than during the last general elections, in 2002, 
when conditions were undeniably safer. We think that democratic 
participation in the election results will help focus 
Pakistan's resolve on countering the growing threat of violent 
extremists.
    Looking ahead, the United States must help the Pakistani 
people size the opportunities that these successful elections 
now present for their country. Our assistance and engagement in 
Pakistan is designed to help the country develop into a modern, 
moderate, democratic, and prosperous country. We should now 
renew our efforts. We will continue to support Pakistan's 
democratic progress. We will continue to help Pakistan build a 
better education system, improve governance across the country, 
and offer more economic opportunities to its citizens in 
impoverished areas. We will also help--we will also continue to 
help Pakistan to increase the capacity of its security forces 
to fight the violent extremists that threaten us both.
    Our efforts in each of these areas are ongoing. We 
supported Pakistan's elections, and now we will support the 
Pakistani people as they choose their leaders. Political 
parties are negotiating the formation of a government, and we 
look forward to working with the leaders who emerge from that 
process. We have robust education, governance, and economic 
growth programs in Pakistan. Between 2002 and 2007, for 
example, we invested $256 million in projects to reform and 
revitalize Pakistan's education system. We also continue to 
help Pakistan improve its security force capabilities. In many 
areas, in the northwest, in particular, local forces cannot 
defend their homes and towns against militants and terrorists.
    For national security reasons, much of our assistance to 
Pakistan will continue to focus on the Federally Administered 
Tribal Areas. This area, on both sides of the border, is 
critical to our national security. Al-Qaeda leaders use this 
area to plot, plan, and train for attacks in Pakistan, 
Afghanistan, and, indeed, throughout the world, including 
against the United States and United States interests abroad. 
Thanks to strong bipartisan support, we are implementing a 
multiyear program to expand, equip, and train local security 
forces in the tribal areas. The goal is to give these forces 
what they need to protect their towns and fight violent 
extremists who are trying to undermine Pakistan's 
modernization.
    We are partnering with select units of Pakistan's special 
forces, as well. Enhancing Pakistan's counterinsurgency skills 
in the tribal areas is only part of the story, however. Also, 
thanks to congressional support, the United States Agency for 
International Development is implementing programs to support 
the Pakistani Government's 9-year, $2 billion sustainable 
development plan for the tribal areas. We hope to continue 
supporting this program, with a total commitment of $750 
million over the next 5 years. Our and Pakistan's programs are 
increasing economic opportunities and improving governance in 
sections of the tribal areas with little hope and few jobs. The 
battle for hearts and minds is nowhere more evident than here, 
where towns and villages without strong economic foundations 
are vulnerable to extremist infiltration.
    We urge you to consider and pass legislation to create 
Reconstruction Opportunity Zones which can play a major role in 
the development of this part of Pakistan, as well as on the 
other side of the border, in Afghanistan. We look forward to 
legislation authorizing these zones to be introduced in 
Congress and eventually passed.
    On February 18, the Pakistani people rejected the forces of 
fear and terror, and, instead, cast their votes for freedom and 
democracy. We should help the Pakistani people seize the 
opportunities that their successful elections now present. We 
are fully prepared to work closely and intensively with all of 
Pakistan's leaders to create a strong civilian democracy to 
continue to aggressively prosecute the war on terror.
    I note with interest Chairman Biden's proposal on our 
assistance to Pakistan, which we are looking at closely. We 
look forward to talking with you about how we can strengthen 
our commitment to Pakistan's democratic progress, to continue 
economic prosperity, and to continue to--continued close 
cooperation against violent extremism. With the support of 
Congress, we will remain close allies with Pakistan in support 
of our common objectives.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Ambassador Negroponte follows:]

  Prepared Statement of Hon. John D. Negroponte, Deputy Secretary of 
               State, Department of State, Washington, DC

    Mr. Chairman and members of the committee, thank you for giving me 
the opportunity to address recent developments in Pakistan, where the 
stakes remain very high for the United States and for the world. 
Pakistan has been indispensable to our worldwide struggle against 
violent extremists, and successful American engagement with a stable 
and democratic Pakistan is vital to our national security interests. As 
Afghanistan's neighbor, Pakistan plays a pivotal role in the 
coalition's war effort there. Without security and stability on the 
Pakistani side of the border, success in Afghanistan will prove 
elusive. Pakistan's future will also be decisive in the search for 
stability in South Asia--a region of vastly increased importance to the 
United States. The United States and Pakistan have a common interest in 
the success of a robust and multifaceted fight against violent 
extremism, focused on democracy and economic development as well as on 
security cooperation. We intend to pursue that common interest 
vigorously with Pakistan's next government.
    Pakistan took a big step toward civilian democracy on February 18, 
holding successful elections under challenging circumstances. We thank 
Senators Biden, Kerry, and Hagel of this committee, and Representative 
Sheila Jackson-Lee, for their interest in Pakistan's democratic 
progress. You were in Pakistan on election day, observing polling 
places and talking to political leaders, and I believe your presence 
helped underscore for the Pakistani people the importance we place on 
their democratic progress.
    The election outcome demonstrates that Pakistanis are strongly 
committed to democracy, and the outcome in the North West Frontier 
Province shows that Pakistanis want good governance, including 
effective action against violent criminals and suicide terrorists. 
Although not perfect, the elections reflected the will of the voters, 
the vast majority of whom have embraced the results.
    More than 70 Pakistanis lost their lives on election day. We 
condemn the violence that led to those deaths. I think it is fair to 
say, however, that the violence could have been worse. The Pakistani 
people refused to be intimidated by a wave of murderous terrorist 
attacks prior to election day. In fact, they voted in higher 
percentages on February 18 than during the last general elections in 
2002, when conditions were undeniably safer. We think that democratic 
participation and the election results will help focus Pakistan's 
resolve on countering the growing threat of violent extremists.
    Thanks to strong congressional support, the United States was able 
to help Pakistan prepare for the elections. International observers got 
the accreditation they needed to do their jobs, and they were allowed 
to visit and monitor polling stations. We helped the Election 
Commission post voter information online, including a list of polling 
station locations, the voter rolls, and a roster and running tally of 
election complaints. We also supplied 215,000 translucent ballot boxes 
for election day.
    Our private and public engagement with senior Pakistani leaders 
helped end the state of emergency in December 2007, which we believed 
was a setback to Pakistan's democratic progress. We supported the 
international observer effort as well, deploying some 40 American 
monitors, and an additional 38 independent observers. Along with six 
other countries, we financed and helped train more than 19,000 domestic 
observers. In general, the observer groups' reports judged the 
elections successful, even while pointing out serious flaws in the 
process. The United States continues to believe that only democracy can 
build a long-term consensus among Pakistanis on a moderate, prosperous 
future for their country. Our engagement with Pakistan's leaders 
reflects those beliefs.
    Looking ahead, the United States must help the Pakistani people 
seize the opportunities that these successful elections now present. We 
supported Pakistan's elections, and now we will support the Pakistani 
people as they choose their leaders. Political parties are negotiating 
the formation of a government, and we look forward to working with the 
leaders who emerge from that process. Our assistance and engagement in 
Pakistan are designed to help the country develop into a modern, 
moderate, democratic, and prosperous country. We should now renew our 
efforts by continuing to support Pakistan's democratic progress, to 
improve its education system, to improve governance across the country, 
and to offer more economic opportunities to its citizens in 
impoverished areas. We will also continue to help Pakistan increase the 
capacity of its security forces to fight the violent extremists that 
threaten Pakistan's gains and the world's security. In many areas in 
the northwest, in particular, local forces cannot defend their homes 
and towns against militants and terrorists.
    For national security reasons, much of our assistance to Pakistan 
will continue to focus on the Federally Administered Tribal Areas. Al-
Qaeda leaders exploit this area to plot, plan, and train for attacks in 
Pakistan, Afghanistan, and, indeed, throughout the world, including 
against the United States and against U.S. interests abroad. Thanks to 
strong bipartisan support, we are implementing a multiyear program to 
expand, equip, and train local security forces in the tribal areas. The 
goal is to give these forces the capabilities they need to protect 
their towns and to fight violent extremists who are trying to undermine 
Pakistan's modernization. In the short term, we continue to encourage 
Pakistan to aggressively target al-Qaeda, the Taliban, and other 
violent extremists who enjoy safe haven in the tribal areas.
    Militants and terrorists treat the Afghanistan/Pakistan border 
region as a unified battle space. Coordination among Afghan, Pakistani, 
International Security Assistance Force, and U.S. forces in the border 
region is therefore crucial to denying violent extremists space to plan 
and train there. In mid-March, we and our Afghan, Pakistani, and 
coalition partners will open the first of six planned Border 
Coordination Centers at Torkham, Khyber Agency. The centers will make 
it possible for Pakistani, Afghan, and International Security 
Assistance Force representatives to coordinate more effectively to stop 
the enemy from skirting both sides of the rugged border to avoid 
engagement.
    Enhancing Pakistan's counterinsurgency skills and improving 
coordination along the border is only part of the story, however. Also 
thanks to congressional support, the U.S. Agency for International 
Development is implementing programs to support the Pakistani 
Government's 9-year, $2 billion Sustainable Development Plan for the 
tribal areas. We hope to continue supporting this program with a total 
commitment of $750 million over the 5 years from FY 2007 through FY 
2011. Our and Pakistan's programs are increasing economic 
opportunities, developing capacity and improving governance in sections 
of the tribal areas with little hope and few jobs. Nowhere is the 
battle for hearts and minds more evident than here, where towns and 
villages without strong economic foundations are vulnerable to 
extremist infiltration. Just as our earthquake assistance to Pakistan 
in 2005 and 2006 had a profoundly positive impact on the people of 
Pakistan--generating good will that has lasted to this very day--so do 
we envision our support for development of the tribal areas opening 
this challenged environment to government and opportunity.
    We are accomplishing much in the tribal areas. This month we will 
help refurbish several hospitals' delivery and surgical facilities, and 
will train maternal health and other medical professionals. We will 
continue a 4-year polio eradication drive. We recently provided water 
and sanitation facilities to 108 girls' schools and 54 communities in 
the tribal areas. We are supporting a range of education programs, from 
school construction to curriculum development, that seek to expand 
opportunities at all education levels. In another area, we are talking 
to local officials about how to restore police authority to a central 
market. We are even providing blankets, stoves, utensils, and other 
relief items to individuals in North Waziristan who have been displaced 
due to fighting in South Waziristan. These are just a few examples of 
the activities we are pursuing to improve lives and enhance governance 
in the tribal areas.
    Our security and development programs in the tribal areas are 
critical to achieving our highest long-term objectives in the war on 
terror. These programs will boost sustainable economic development for 
citizens in impoverished areas at the epicenter of the war on terror 
and drugs. Just as important, these efforts are essential to 
maintaining forward momentum in strengthening our long-term, broad-
based relationship with the Pakistani people. In this regard, we urge 
you to consider and pass legislation to create Reconstruction 
Opportunity Zones, which can play a major role in development of this 
part of Pakistan and on the other side of the border in Afghanistan. 
This legislation is vital to long-term development, to creating jobs, 
and to providing an alternative to illicit activities, including 
terrorism and narcotrafficking, in some of the most troubled regions of 
Pakistan and in Afghanistan.
    On February 18, the Pakistani people cast their votes for freedom 
and democracy. We must continue to help the Pakistani people seize the 
opportunities that these successful elections now present. We are fully 
prepared to work closely and intensively with all of Pakistan's leaders 
to create a strong civilian democracy and to continue to aggressively 
prosecute the war on terror. I note with interest Chairman Biden's far-
reaching proposal on restructuring our assistance to Pakistan, which we 
are studying closely. We look forward to talking with the committee 
about how we can strengthen our commitment to Pakistan's democratic 
progress, to economic prosperity, and to continued close cooperation 
against violent extremism. With the support of Congress, we will remain 
close allies with Pakistan in support of our common objectives.

    The Chairman. Thank you, Mr. Ambassador.
    As you can see, we have a big turnout. The reason why some 
of our colleagues have left, we move in order of seniority, and 
they're in other committees, and Banking Committee has the 
Chairman of the Fed there, and a few other things, but they're 
all planning on coming back.
    So, with the permission of the chairman, I think we should 
do 7-minute rounds, so everybody has an opportunity, here, 
getting questions.
    I have many, many questions, as we all do, so I may, with 
your permission, submit some in writing for the Department.
    One of the things that I observed--I think we all--the 
three of us, had a sense of, anyway--we did not get into the 
Federally Administered Territories--Tribal Areas, but we got 
very close; we were right in the border, and we saw their 
counterparts, in effect, on the Afghan side of the border. And 
we watched these young military and aid workers, civilian 
workers, do remarkable things with a little bit of money in 
these forward operating bases and in these PRTs that we 
visited. And we went up into the area nestled up into the 
mountains, just beyond Tora Bora. As a matter of fact, we had 
an interesting landing, because--we blame it all on Senator 
Kerry for wanting to go see Tora Bora. I'm only kidding, John, 
but----
    [Laughter.]
    The Chairman [continuing]. But, literally, it was amazing 
what's happened up there.
    And here's the point. The point is that I came away more 
convinced than I was before, Dick, that economic assistance 
into these areas has a gigantic bang for the buck, and that if 
it worked in the Afghan side, I was even more convinced it 
would have even greater firepower, figuratively speaking, on 
the Pakistani side.
    And so, my first question is a generic one, and just 
could--if you'd help me with close to a yes or no--is that--Do 
you believe that our ability to bring some economic opportunity 
into the FATA, into the Federally Administered Tribal Areas, 
has, along with the training of the Pakistan special forces, 
along with our efforts in coordination from the Afghan side, 
that it is one of the elements of being able to get a hold on 
the terrorists coming out of that territory?
    Ambassador Negroponte. Absolutely, Senator. And I would 
just make two points.
    I think that the Government of Pakistan itself has felt 
that in the last couple of years, and they developed this $2 
billion, multiyear plan to develop the Federally Administered 
Tribal Areas, and then, of course, we have this $150 million a 
year plan--5 years, $750 million, total--which I think can, and 
will, play a very important role in helping reduce the threat 
of extremism in that part of the country.
    The Chairman. I knew you believe that, but I think it's 
important, for the record, for a lot of our colleagues not on 
this committee to understand that the administration, as well, 
believes there's a correlation between the economic assistance 
and our ability to do this.
    I would--there is much to speak about, and I appreciate the 
invitation to talk with the administration about the proposal I 
put forward, which, quite frankly, I don't think is a lot 
different than what my friend Senator Lugar is proposing, and 
maybe he and I can work out a--an overall position, here. But, 
I hope we can make some progress on that. I don't--I think 
we're sort of on the same page, the administration and us, on 
what we want to--how we want to move forward.
    One place where I don't--at least, I haven't gotten an 
answer and--is that we have provided $10 billion now in 
economic assistance--excuse me--military assistance, explicitly 
for the purpose of dealing with the fight against al-Qaeda and 
the Taliban. And people with whom we spoke, both here and in 
the region, point out that there is not much accountability--at 
least, we're not aware of any accountability. I asked Assistant 
Secretary of State Boucher, back on December 8--I asked him 
several questions relating to reimbursements, the $6 billion, 
in particular, over the last 6 years. And what we're told is 
that every military--and it's become, sort of, the cash cow for 
speaking with our Embassy personnel, they view it as a sort of 
a cash cow for remittance and reimbursement, and it's--asked 
the question, ``Well, how do we know what we reimburse? Do we 
know whether or not the billion dollars we are paying to deal 
with the extremism in the--along the Afghan border--is that 
money being spent there, or is it being spent on the Indian 
border? Where is it being spent? How do we know?'' It's kind of 
hard to find a billion dollars worth of expenditures, as I look 
at it, along the border with Afghanistan, which I think is the 
central point.
    And so, I was told the State Department keeps meticulous 
records of the reimbursements made under the coalition support 
funds to Pakistan. I was told that if State does not--that 
there is some paper trail, and that there is a--but, there is a 
specific signoff when--and the way it works, as I understand 
it--and my time's about to run out, so maybe you can explain 
this to me--the Pakistani military submits--or the Pakistani 
Government--in this case, it was, up to now, Musharraf--submits 
a bill for reimbursement, saying, ``We help--we kept our 
commitment, we're out there fighting the terrorists, this is 
how much it cost us, reimburse us for this.'' I'm told that 
there is a specific--a specific individual or group of 
individuals at State and Defense who look at this and say, 
``Yeah, this really was expended for the purpose of fighting 
terrorism.'' I have asked whether or not, in a classified forum 
or a nonclassified forum, those of us in this committee could 
see that, because we're the ones, along with the Armed Services 
Committee, saying, ``OK, let's spend a billion dollars of the 
taxpayers' money.'' I see very little evidence that a billion 
dollars has been spent in what we would characterize 
antiterrorist, anti-al-Qaeda, anti-Taliban expenditures per 
year.
    So, is there a reason why--did they just not get around to 
it, or is there a reason why State is unwilling to submit these 
records to us, showing what they've signed off on that--what 
constitutes legitimate reimbursement for the war on terror in 
Pakistan?
    Ambassador Negroponte. Senator, first of all, if I could, 
my understanding is that--you talked about $10 billion--I think 
that's probably----
    The Chairman. Well, I--let me amend that.
    Ambassador Negroponte [continuing]. The aggregate----
    The Chairman. Six billion, in the aggregate, since----
    Ambassador Negroponte. Correct.
    The Chairman [continuing]. 9/11.
    Ambassador Negroponte. Right. I believe it's $5.6 billion 
in coalition support funds that have been provided. And you're 
correct in pointing out that these are funds appropriated to 
the Department of Defense, and they are essentially a 
reimbursement to the Government of Pakistan for expenses 
incurred in their cooperation with us for logistical, military, 
and other support provided to our operations in the war on 
terror. The Embassy does have a role in this, although the 
final disbursement decision is made by the Department of 
Defense. I will have to look into the question of the receipts 
and the information, but we're certainly more than prepared to 
provide a briefing to the committee on this.
    And let me go back, on the question----
    The Chairman. Well, I----
    Ambassador Negroponte [continuing]. Of providing the 
documentation that you requested.
    The Chairman. I would----
    Ambassador Negroponte. I don't know whether this is an 
issue--as between the fact that it's DOD funds, as opposed to 
our funds--whether they have the lead responsibility for 
providing that kind of information.
    The Chairman. But, as I understand it----
    Ambassador Negroponte. I would have to inquire----
    The Chairman. I'm 57 seconds over my time--but, as I 
understand it, State has to sign off first. State actually----
    Ambassador Negroponte. Right
    The Chairman [continuing]. Looks at it and checks it out.
    Ambassador Negroponte. Right.
    The Chairman. And so, I would formally request that we have 
such a briefing, in whatever setting you think it has to occur.
    Ambassador Negroponte. OK.
    The Chairman. Thank you.
    Yield to my colleague.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Secretary Negroponte, as you can gauge from at least our 
opening statements, the chairman and I are on the same page 
with regard to what we hope is your testimony, that there 
really does need to be a comprehensive plan involving the 
economy, specific focus of foreign assistance, in one form or 
another, as well as accountability for military expenditures. 
So, I'm going to ask two or three things, so that you can 
express, maybe, more essay form, rather than spot answers.
    My first question will be, How rapidly can the 
administration come forward? I realize that's not your prime--
or your only responsibility. The Department of Defense is 
involved, National Security Council, the President's own 
decision. But, it seems to me that this is a crucial turning 
point--the election, the formation of this government now, our 
views with regard to that government--and that the need to at 
least spell out what type of moneys we're thinking about, and 
how those are to be organized, is really critical, in terms of 
our diplomatic role in approaching the new leadership, as well 
as the Pakistani people, and, for that matter, our allies 
elsewhere, who we are counting upon in Afghanistan. Certainly 
that forthcoming NATO meeting in Bucharest will clearly have 
that at the top of the agenda, quite apart from consideration, 
at least, directly with Pakistan.
    So, in terms of timeliness, we're about to take up--in the 
Senate in a couple of weeks--a budget that is not definitive 
for the whole year, but it does really bring the issue, 
hopefully, forward pretty fast. And if this is to be effective, 
why, appropriations would need to follow fairly rapidly if we 
are to seize this moment.
    So, my thought is whether we do this in private session, 
initially or publicly, that is, the need for a comprehensive 
plan and a very rapid one, in which we may have suggestions. 
The chairman has made some, in terms of actual sums of money 
involved. But, the administration's views are really important, 
at this point.
    Now, I think, on top of that, I would stress, once again, 
this idea of accountability. The thought will clearly come to 
many members, ``Sure, we would like to support some of these 
objectives, but how do we know what has happened, what have the 
results been?'' Certainly, press accounts have offered a rather 
murky view of this. But, here we have a new beginning, we have 
a new government, an election, and a new day. At least, we can 
cast it this way, and I think the Pakistani people may already 
have.
    Now, as a third function in--this is a more difficult 
proposition, I would admit, but this is a good opportunity, it 
seems to me, once again, to think about transparency with 
regards to the nuclear program of Pakistan. And whatever 
happened to A.Q. Khan--or, more importantly, his network? What 
still exists? What elements are there that are very important 
for us in nonproliferation in a lot of other areas that have 
been affected by Pakistan through this important individual, at 
one point--A.Q. Khan? For the time being, President Musharraf 
has assured us that he's done about the best that he can, 
simply with, a sort of house detention of A.Q. Khan, but with 
nothing more said. He would have testified, I think, if he were 
here, that A.Q. Khan is a national hero, perhaps of greater 
significance than even President Musharraf himself or anybody 
else. And, therefore, you don't touch national heroes. From our 
national interests, however, we need to have some thoughtful 
conversation about this. And so, as we have a new beginning 
with Pakistan, hopefully we think about this, because we are in 
heavy negotiations right now--and they're rather labored--with 
the Parliament of India, with regard to the nuclear agreement 
that we hope to fashion there. But, many in India, in that 
Parliament, quite apart from the Communists, but, say, the 
military, would say, ``Why in the world are we becoming more 
transparent with regard to the IAEA or America or anybody else, 
with the Pakistanis, right across the border, being supported, 
militarily, by the United States, but without the same 
questions asked, without the same possibilities?''
    So, this is a large bit of planning, suddenly; but then, 
this is the way the world works, and this is such a critical 
area for our national security, it would be worthwhile for our 
highest officials to take the time, right now, to formulate a 
plan.
    Do you have any overall comment about this?
    Ambassador Negroponte. A couple of comments, Senator.
    First of all, we, of course, are operating under our 
existing plans, and we had a 5-year, $3 billion assistance 
program for Pakistan under the global war on terror, so that's 
fiscal year 2005 through fiscal year 2009, $600 million a year. 
We also have the earthquake reconstruction moneys, which are 
also being expended at the moment. Plus, now, of course, as I 
mentioned, this 5-year plan, from fiscal year 2007 through 
fiscal year 2011, to support the Federally Administered Tribal 
Areas. So, those, I would submit to you, are the elements of a 
plan that are already ongoing. I think the fact that the 5-
year, $3 billion global war on terror plan will be ending in 
fiscal year 2009 presents an opportunity to have the kind of 
dialogue that you're talking about. So, without getting into 
specific numbers and figures, I think it's something that we 
ought to discuss, going forward.
    And the other more general point I would submit, which I 
think is the tenor of the commentary that we've heard in this 
room so far today, is that the situation in Pakistan is of as 
great an interest to us--to the United States and to our 
interests--as the situation in Afghanistan, and, in some sense, 
these two countries, they're the flip side of the same coin, as 
far as the problems we're trying to address. We're never going 
to be able to succeed in one of those countries unless we 
succeed in the other. And I think that's a crucial point, and I 
would hope that those who are watching or listening would be 
receptive to that suggestion.
    On accountability, one point I would like to make about, 
``How do we know what's happened?''--I was reading, in 
preparation for the hearing, about some of the results of our 
economic assistance programs in Pakistan in recent years, and I 
really do think that some of the progress in that country, in 
terms of infant mortality, literacy, particularly female 
literacy, has been, really, quite impressive. Enrollment in 
schools, which--in 2000, for example, female enrollment in 
schools was 47 percent; now it's 59 percent. I think there have 
been some significant improvements in the social and economic 
situation in that country. And we would hope to see a 
reinforcement of those trends in the future years.
    Last point, on whatever happened to A.Q. Khan--as you 
correctly note, he is under house arrest. I gather his health 
may be an issue. But, in any event, I don't think that that 
network is active, at the moment. I think it has been 
neutralized, if you will, and I think we're satisfied that that 
kind of activity is not continuing, at the moment. And I think 
that we've also succeeded in getting quite a bit of information 
from the Pakistani authorities about questions that were of 
concern to us in that regard. But, I think we probably have to 
talk, in classified session, about the A.Q. Khan network, if 
we're to go into it any more deeply.
    Senator Lugar. Thank you.
    The Chairman. I'd say to my colleague, one of the things 
that startled us, the day after the election, is the first 
comment by Sharif was that he wanted to see the release of A.Q. 
Khan. That was the first official statement he made, to the 
best of our knowledge. Fortunately, he did not win outright, 
but it reinforces your point about the national hero status.
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here with us. With 
reference to that landing that Senator Biden was talking about, 
I want you to know that--that's the first time I realized I was 
responsible for it, but, apart from that, we had decided that 
if the Taliban or al-Qaeda attacked, the three Senators were 
just going to go out and talk them to death. [Laughter.]
    So, we weren't worried at all.
    Mr. Secretary, one of the things that really hit all of us 
while we were there, particularly through the competence of the 
young PRT personnel that we met with, who are doing 
extraordinary work, obviously, in nation-building, perhaps even 
more so than in their military operations--though they are 
engaged in those also--but what was really significant was the 
civic community-building taking place, and the changes 
occurring as a consequence of that. And, as Senator Biden said, 
if you spend some money, and you invest in it, you can get 
results. How you do that is pretty critical. What the 
relationships are, what your footprint is, what the perceptions 
of the people are of that footprint--all of that is part of the 
mix.
    It struck us how critical--and, indeed, you've said it in 
your testimony--the relationship is between what happens on 
that border in Pakistan to Afghanistan, and vice versa, what 
happens in Afghanistan to Pakistan, because of those tribal 
linkages, the freedom of movement, obviously, and the history 
there, culturally and otherwise.
    Here's the ``but'' in the big question. We observed that, 
in Pakistan, their leadership tends to be far more concerned, 
and expresses greater concern about, the indigenous insurgency. 
Baitullah Mehsud and company are a far greater concern to them 
than al-Qaeda. And, in fact, disturbingly, I have read, in the 
papers in the last couple of days, discussions not dissimilar 
to what Musharraf engaged in Waziristan, with the tribal 
leaders for some kind of a settlement. It didn't work then; it 
allowed freedom of movement; violence went up. And I think 
that's a recipe for disaster. And I'd like to hear your 
comments on the administration's view with respect to your 
concerns about these distinctions between different insurgents 
and the capacity of the Pakistan military and Government to 
focus on this mutual concern of transformation that has to take 
place in those areas, and the full measure of engagement that's 
got to take place, with all of its risks, in order to really 
provide real stability.
    Ambassador Negroponte. First of all, Senator, I would say, 
I don't think that--whatever might be said about talking or not 
talking with the militants, I don't think there's any 
particular sympathy in the Pakistani body politic for militant 
extremism. And I think we saw that in the outcome of the 
election results.
    Senator Kerry. But, Musharraf cut a peace deal, so to 
speak, and the peace deal was, ``If you don't bother us in X, 
Y, and Z, we're not going to bother you here,'' and that 
allowed them freedom to do what they want to do with al-Qaeda.
    Ambassador Negroponte. If you're talking about the deal in 
south Waziristan--and it didn't really work, and I think they--
--
    Senator Kerry. That's what I'm saying.
    Ambassador Negroponte. I think they found that out. And I 
believe--and the government has got 100-plus-thousand troops up 
in that frontier area, they've got two divisions in 
Waziristan--I believe, one in south Waziristan, and one in the 
north--and they've engaged in significant combat.
    Senator Kerry. They have. But, again, in our meetings with 
the ISI, and in the discussions with folks, there seemed to be 
a conclusion that those 100,000 troops and others aren't really 
trained for counterinsurgency, they don't understand 
counterinsurgency, and that there's a lack of capacity to be 
able to achieve this. So, just having 100,000 troops up there 
engaging in these assaults, in fact, can push people further 
away toward the insurgency, rather than doing what we need to 
do to win.
    Ambassador Negroponte. Right. And I think that that's one 
of the plan--that's really one of the plans, going forward, is 
to help Pakistan improve it's counterinsurgency capability, in 
two different respects: One, helping the army with some of its 
special units--and we have plans with regard to that; and the 
other is to help train the frontier corps, although that'll 
take a longer period of time. But, in that $750 million plan, 
we've got some ideas of helping the frontier corps, as well.
    So, I would say that it's not a question of accommodating 
these extremist forces. I believe that the Government of 
Pakistan wants to, and I believe the political actors in 
Pakistan want to, deal with them. They do not want to give them 
free rein. They've suffered a lot of casualties. There's been 
an enormous increase in violence in the past year, and it's 
spread, as you know, not only from the FATA, but down into what 
they call the settled areas. And they want to resist this 
trend, and beat it back. But, it's going to take some time and 
some work----
    Senator Kerry. My concern is that if there isn't a more 
effective partnership with respect to the counterinsurgency 
mission, and a greater understanding on their part of how to 
implement it, I fear that they are just going to increase that 
insurgency.
    Ambassador Negroponte. And that's why, I think, we have to 
work with them harder on both the counterinsurgency--the 
military and security aspect of training them, and working with 
them on the economic aspects that we're talking about. And I 
think we're positioning ourselves better to do that than we've 
been, in previous years.
    Senator Kerry. Do you feel that there are some best 
practices that come out of the Afghan PRTs that might be 
applied to what we're doing, in terms of that?
    Ambassador Negroponte. I would have to study that, but the 
one major difference, of course, is that we're not going to be 
able to use American military forces.
    Senator Kerry. Clearly understand--we want the Pakistanis 
to do this.
    Ambassador Negroponte. Right.
    Senator Kerry. We don't want American forces--but, the best 
practices fit, nevertheless, in the context of the mix of 
activities, the presence of a robust kinetic capacity, while, 
at the same time, doing the other things----
    Ambassador Negroponte. Right. And I think that's a good 
idea. And I think we should encourage our AID officials, who 
have, perhaps, the principal responsibility for carrying out 
these assistance programs in the FATA, and they're doing it 
mainly through Pakistanis, nongovernmental organizations, 
subcontractors, and so forth. But, I think it would be good, if 
they're not already doing so, to compare notes with those 
running the PRTs across the border.
    Senator Kerry. I was impressed that, in a sense, this is 
sort of a next-generation effort, and I saw this in Iraq also. 
A young Navy commander from Nebraska who was in a PRT was 
unbelievably impressive to all of us in his ability to brief us 
on every single tribe, the leaders, knowledge of their history, 
a sense of who the players were, and what the dynamics were 
between them. And he really understood politics. And, while 
wearing a uniform, his effort was to try to separate the enemy 
from the people without using the military. But, that presence 
does make a difference, notwithstanding. And I think we may 
have to rethink the AID model, which doesn't necessarily work 
in these unsecure situations, where you can't keep people out 
there. And that was just eye-opening. It was significant. I'm 
not saying it's the whole solution. For one, you've got to 
substitute those people as rapidly as possible with indigenous 
forces, obviously.
    And the other question that leapt out at me--and I'd just 
leave it on the table--there's a big nut for the American 
people in that PRT presence, when it's on a broader basis. And 
the question that has to be asked, Is there a cheaper way? Is 
there a more effective way to train indigenous forces and do 
this without the American people taking on in some aspects the 
responsibility of a ``52nd state? And we need to think about 
that.
    Ambassador Negroponte. If I could, just one point, Mr. 
Chairman, in reply.
    One of the issues that you're addressing, really, is how 
we're going to gear up in the future to deal with these kinds 
of stabilization situations, and, is there more that could be 
done? And, of course, the chairman and Senator Lugar have 
submitted legislation on reconstruction and stabilization.
    Senator Kerry. Right, the civilian corps.
    Ambassador Negroponte. They call this the Reconstruction 
and Stabilization Civilian Management Act. And I think that 
could very well be part of the mix in the future, and I think 
it's a very good--a very, very good initiative, and hope that 
it receives the support of the Congress.
    The Chairman. Thank you.
    As you can see, Mr. Ambassador, both Senator Kerry and I 
were startled that someone from Nebraska knew so much. 
[Laughter.]
    I now recognize the Senator from Nebraska. Senator Hagel. 
[Laughter.]
    Senator Hagel. Well, I----
    The Chairman. For the record, that was a joke. OK? I mean--
--
    Senator Hagel. I'm not often introduced with such a 
flourish of flowery----
    [Laughter.]
    Senator Hagel [continuing]. Positive contribution.
    And I would add my note, not only of gratitude, but of 
acknowledging how impressive all of those young men and women 
were, and the work that they're doing. And they are more than 
just soldiers; as Senator Kerry noted, they are ambassadors, 
they are mayors, they are mediators, they are warriors. And 
it's really a dramatic recognition of commitment, but also 
training, as well.
    I'd also like to acknowledge our ambassadors in that area. 
Obviously, we spend a lot of time with Ambassador Patterson, in 
Pakistan, and her colleagues, who are doing a very, very 
important job. And doing it in a way that has, I think, made a 
considerable difference in watching the Pakistanis respond to 
Ambassador Patterson and her people was some measure, I think, 
of the respect that she has earned, as well as our position 
there. And I would also add the same for Ambassador Wood and 
his colleagues, in Afghanistan.
    Ambassador Negroponte, you noted, in the opening of your 
statement, the importance, as you have said here--``Pakistan's 
future will also be decisive in the search for stability in 
South Asia,'' and you connected that to Afghanistan. I agree 
with that. I'm going to ask you a question based on that 
statement. It is my opinion that the belt that stretches from 
Iran to India--Iran, Afghanistan, Pakistan, India--represents 
as important an area--and you've noted in your testimony--but 
also as a dangerous, combustible, complicated area of any area 
in the world. And when you add to that China, off the border of 
India, and Turkey, off the border of Iran, we find three 
nuclear powers, a nation that obviously is quite interested in 
developing nuclear capability in Iran, an indispensable ally in 
Turkey, and Afghanistan and that strip of land, the border 
between Afghanistan and Pakistan, represents, I think, the 
centerpiece of our fight--the world's fight--against extremism.
    Now, I know that you agree, at least in some measure, to 
that based on your testimony. My question is this. If, in fact, 
any of that is accurate, what I have just noted, what is our 
regional strategy? You have gotten into some of this regarding 
Afghanistan and Pakistan, as to how they are connected, how 
they are linked. One cannot be successful without the other--
very clear, very obvious. But, I think it's broader than that 
and deeper than that. I would include that entire region, the 
nations that I just mentioned. And so, it seems to me that some 
regional strategic context is going to be required, if it's not 
already being applied, and I'd like to get your response to 
that ``regional strategy'' concept.
    Ambassador Negroponte. Of course, the countries you 
mentioned, in addition to Pakistan and Afghanistan, have other 
neighbors, as well--I mean, China, and so on, and so forth; and 
Turkey, of course, is part of the European region. I think 
you're asking a very complex question, but, I think the way I 
would try to answer it, Senator, is, first of all, we think the 
most important priority is to deal with the very sensitive 
border area that you're talking about, and deal with the 
militant extremism; all the while, working to stabilize the 
situation in Afghanistan, and help that government extend its 
writ throughout the country. I would say that's point
No. 1.
    I think point No. 2 is that, as you know, we have, in 
recent years, improved our relationship, our outreach to India, 
and have developed more of a partnership with that country, 
while, at the same time--and I think we've played a 
constructive role in that regard--encouraging improvement in 
relationships between India and Pakistan. And then, of course, 
Iran, I would say, is a whole sort of different issue set. It 
happens to border on Pakistan and Afghanistan, but it also 
plays a significant role in the Middle East; mostly negative. 
So, I think it would be hard to slot all of this into one 
regional strategy of the kind you're talking about, but there 
certainly are elements there.
    Senator Hagel. Well, obviously, we deal with each on the 
basis of the dynamics and the realities that are in play, but, 
at the same time, it seems to me, the strategic moves that we 
make in any of these areas affect all of the other areas. And 
that's what my point is. Do we think about that? Do we 
strategize? Obviously, Afghanistan is sitting there with two 
dangerous borders, to the east and the west. The dynamic of 
Iran seeing American forces on each side of its border. Do we 
factor those in to the larger fabric of our strategic thinking, 
with our allies and our aid, working with governments?
    Ambassador Negroponte. I think we do. If I could say this 
about Iran; I think Iran plays a fairly negative role, wherever 
it happens to be engaged. We've seen--and I'm sure you 
encountered this when you were in Afghanistan--a concern about 
their providing explosive devices to the Taliban. They've not 
been helpful in Iraq. And, of course, they've played a role in 
fomenting and encouraging militant extremism in the Middle East 
region, particularly in Lebanon, and in the Israeli-Palestinian 
situation. So, I think that Iran itself calls for a strategy to 
deal with it, both in the context of Afghanistan and Pakistan, 
but also the Middle East, generally.
    Senator Hagel. Do we have enough people to carry out these 
programs that you were talking about in your testimony, and 
Senators Biden and Kerry and Lugar were talking about?
    Ambassador Negroponte. We've got a total, in our mission in 
Pakistan, of--permanently assigned--of over 1,400 people; 336 
are Americans, 1,098 are local nationals. And that doesn't 
include a fairly healthy number of temporary duty personnel who 
are in Pakistan at any given time. So, I would say it's a good 
size mission.
    Senator Hagel. Well, my time is up, but that really wasn't 
my question. It's a good size mission, I recognize that, but 
you're talking about a number of new programs in your 
testimony. For example, pass legislation to create 
Reconstruction Opportunity Zones. We saw a number of those 
programs; not these specific ROZ programs, but other programs. 
My question is, Do you have the manpower in order to implement 
a rather aggressive agenda, which I think are needed, of 
programs, or are you going to require more people?
    Ambassador Negroponte. I think, with respect to 
Reconstruction Opportunity Zones, if and when we accomplish 
that, we may need some more resources, both financial and 
human, and maybe that'll be true of some other programs, but I 
do think that we have a solid basis right now, and it may 
require some adjustments--upward, going forward, but I wouldn't 
want to commit to any, or predict any, specific numbers.
    Senator Hagel. Thank you, Mr. Chairman.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, for holding this 
very timely hearing.
    And thank you, Secretary Negroponte, for your testimony.
    And, Mr. Chairman, I know you and some of the other 
Senators are just back from Pakistan. I appreciate hearing the 
recent insights that you're able to give.
    The historic, relatively peaceful parliamentary elections 
in Pakistan have ushered in a new opportunity to build strong 
institutions that can bolster and build a strong democracy, 
address the increasing insecurity throughout the country in a 
balanced manner, and ensure that our assistance is consistent 
with the needs of the people of Pakistan, rather than with a 
President who now has been rejected by Pakistan's voters and 
who has increasingly repressed political space and undermined 
democracy.
    We must seize this opportunity to reverse decades of 
failed, ineffective policies with various Pakistani leaders. We 
can do this by promoting and supporting the rule of law, and by 
seeking to eliminate corruption, poor governance, endemic 
poverty, and historic marginalization. We should help ensure 
that restrictions on basic freedoms and political rights are 
permanently reversed, all while working with the Pakistani 
Government to counter the terrorist threats that fester and 
grow in Pakistan and the border region.
    And, with regard to some questions, I'm interested to hear 
from you about U.S. Government intentions to support the newly 
formed coalition government. Mr. Secretary, how does the United 
States intend to support the loosely formed coalition 
government? And can you speak to how our policy has actually 
been impacted by these elections?
    Ambassador Negroponte. Regarding our intentions, Mr. 
Chairman, as I said in my opening statement, we certainly look 
forward to working with whatever government emerges from this 
process. We don't know yet what that government will be. I 
spoke to Ambassador Patterson this morning. She predicted that 
such a government should emerge within the next couple of 
weeks, perhaps sooner. So, we're in a ``wait and see'' mode, as 
far as that is concerned. But, certainly, we look forward to 
working with that government in every way possible, and being 
supportive.
    Senator Feingold. Well, obviously, in the long run, the 
actions will speak louder than words, and I'm sure it's not 
escaped the attention of the Pakistani people that, as the 
administration has paid at least lipservice to democracy in 
Pakistan, it has continued to provide hundreds of millions of 
dollars in military equipment designed to combat a conventional 
military foe--actually, not terrorists--a military foe to the 
Musharraf regime. So, right now, are you encouraging this 
coalition to work with President Musharraf's party? Isn't there 
a danger that your unwavering support for the regime will cost 
us the support of the Pakistani people?
    Ambassador Negroponte. Well, as I said, we're going to work 
with whatever government emerges from the process. We're not in 
the business of recommending specific alignments or specific 
coalitions. I think we would, as a general proposition, urge 
that the moderate political forces work together. And, of 
course, President Musharraf is still the President of his 
country, and we look forward to continuing to work well with 
him, as well.
    Senator Feingold. But, what about the military support to 
the regime continuing unabated, without any recognition of the 
political change, here? I mean, doesn't it send a troubling 
message?
    Ambassador Negroponte. Right. I think it's not a question 
of supporting a particular individual, Senator. It's a question 
of providing assistance to the institution of the army and of 
the security forces in Pakistan, and try to enable them in the 
ways that we've been discussing, here--improving their 
counterinsurgency capability and so forth. And also, I don't 
think we should underestimate the high impact that some of our 
economic and social programs have had, whether it's been on 
literacy or democracy support. Actually, we did a lot, as your 
colleagues know, to support the election process that was just 
carried out, in terms of helping promote election observation, 
democracy promotion, and so forth.
    Senator Feingold. I recognize that point. I also recognize 
that, in an ideal situation, providing support to the military 
for a country certainly can be consistent with supporting 
institutions and supporting a country moving forward. But, in 
this case, there's a particular problem with the military, with 
the role of the army in Pakistan, and with President 
Musharraf's relationship with the military, and how that's 
perceived by the public. So, obviously, you're aware of that, 
and it carries more messages than simply supporting a military 
institution.
    But, let me switch to the issue of judicial reform. 
Assistant Secretary of State Richard Boucher told a January 29 
House subcommittee hearing, ``We have urged the political 
leaders and other leaders in Pakistan to focus on the need for 
an independent judiciary. I think it's fair to assume they 
won't really address it seriously until after the election.'' 
However, immediately after the elections last week, rather than 
pressing this point, administration officials were reportedly 
pressuring the new Pakistani leadership to stop their calls for 
reinstatement of the judges dismissed by Musharraf when he 
declared martial law.
    So, what is the administration's policy regarding 
reinstatement of the judges? And is it consistent with the Bush 
administration's stated support for democratic institutions?
    Ambassador Negroponte. Just one point on the previous 
issue, Senator, which I, of course, should have mentioned, is 
that Mr. Musharraf did take off his uniform and did step down 
as Chief of Staff of the Army, and I think that was a very 
significant development.
    Senator Feingold. Very, very late in his Presidency, after 
many years of requests, and only right before the election.
    Ambassador Negroponte. Correct. But I do recall--prior to 
her tragic death, I spoke to Mrs. Bhutto, and I recall her 
saying that she thought this was one of the most important 
things he could do to advance the prospects for a fair and free 
election in her country.
    Senator Feingold. I agree with that.
    Ambassador Negroponte. And, of course, we can't lose sight 
of the fact that the Pakistani military now is a vital 
institution in this war on terrorism.
    As far as the question of the judicial reform, this is 
something that we believe the Pakistanis themselves are going 
to have to sort out. And I think that it's something that'll be 
taken up in their legislature. And we will watch that 
discussion with interest. And we're certainly not trying to 
block any changes of any particular kind, nor do we have some 
kind of prescription or formula for how they should go about 
reforming or improving their own judicial system.
    Senator Feingold. But, does the administration have a 
policy regarding the reinstatement of those judges? Are they 
asking--are we asking for that, or not?
    Ambassador Negroponte. We have not--we have been silent on 
the subject to best of my knowledge.
    Senator Feingold. Thank you.
    Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, whoever you are. 
Thank you very much.
    The Chairman. I'm not sure who I am, either. [Laughter.]
    Senator Corker. I want to thank you for your testimony, and 
I certainly was glad to hear of the testimony of the three 
Senators who were there during the elections. I was there, I 
guess, within a day of General Musharraf taking his uniform 
off, and met with him, and really was touched, if you will, by 
many of the comments that he made. And, I think, actually, some 
of the Senators have said the same thing. I also met with 
former Prime Minister Bhutto to encourage her to run, and not 
boycott the elections; and 27 days later, of course, she was 
assassinated. But, I think it shows tremendous progress to see 
what has happened when we had a president that was, in essence, 
shellacked, if you will, during an election, and yet, is moving 
ahead with trying to build a coalition. And I would say that 
I'm actually somewhat--while this person is not perfect--
impressed with what is happening. It looks like we may, in 
fact, have a peaceful transition. Certainly the country is, by 
no way, perfect, and there are lots of issues that need to be 
addressed, but I hope that you will continue to work with all 
the leaders in Pakistan to ensure that this continues. And I 
want to thank the Senators for having done what they did.
    Let me just ask you this. What do you think has caused the 
fact that moderates were elected, when, in fact, we have this 
tremendous turmoil that is taking place there, which is very 
different from what has occurred in other countries, where more 
extremists have actually taken the lead--what do you think has 
caused this response by the electorate, to, in essence, cause 
moderates to come to the forefront?
    Ambassador Negroponte. Two points. One would be that I 
think there are a lot of secular political leaders in Pakistan, 
and they have a fairly long tradition of that. But, the other 
point I would make is that, whereas the problem of militant 
extremism was bottled up in the FATA area in previous years, it 
has spread into what the Pakistanis call the ``settled areas'' 
now. And I'm sure it was mentioned to you that the number of 
suicide bombings and car bombs and so forth had gone up 
significantly in the past year or so, acts of violence by 
terrorists, in the settled areas. And I think that what you're 
seeing is a reaction to that fact. People don't like that, they 
don't like the disruption to their lives, they don't like the 
terrorist threat. And I think they want to see it dealt with.
    Senator Corker. I thought that Chairman Biden's comments 
about increasing aid there, the soft aid that actually 
addresses the need of Pakistanis, and not necessarily focused 
so much on our transactional relationship, if you will, was 
actually a very good comment. I don't know about the actual 
numbers that need to be invested, but I did notice the 
President's budget actually reduced funding in that regard by 
$75 million. And it does seem that this is a time for us to 
really try to move ahead the government, move ahead the 
understanding of people, move ahead economic development and 
educational opportunities. And I'm just wondering why, at the 
time when this needs to occur, and we've invested so much in 
this country, we're actually, through the President's budget, 
reducing aid in that way, at least proposed aid, in Pakistan.
    Ambassador Negroponte. Yes; I'd have to look at those 
precise numbers, Senator, because my--the picture of the budget 
that I carry with me in my mind over the previous--you know, 
the previous several years, is that it's been running something 
between $600-$700 million a year for these past several years, 
and that's sort of the projection, going forward.
    Senator Corker. OK. Well, I do hope we can follow up with 
some of the meetings that I--that Ranking Member Lugar has 
asked about. And I hope we can get into some of the 
accountability issues.
    Following up, again, on the chairman's thoughts regarding 
Musharraf's activities to sort of retrench and look at his own 
political backside, if you will, based on our lack of 
investment in Afghanistan, I will tell you, there's no question 
in my mind that our actions in Iraq have hurt us in 
Afghanistan, that we have disinvested there, that we have--we 
have, sort of, gone sideways over this last period of time 
because of that. But, I'd love for you to respond to that. I 
don't think he asked the question. I think he made the 
statement. Do you think that, in fact, did affect General 
Musharraf's focus as it relates to terrorism and retrenchment 
back to focus on his own political situation there--our lack of 
focus on Afghanistan?
    Ambassador Negroponte. Well, I guess, first of all, I would 
take some issue with the thought that we have not been focusing 
on Afghanistan, because we have a substantial effort there, 
both our own and, of course, the NATO countries, and we have 
this major NATO summit coming up, in April, where the subject 
of Afghanistan will be a focus.
    Senator Corker. But, I think the people on the ground--I 
mean, I think General McNeill and everybody there on the ground 
acknowledges that we have lacked in our effort there, because 
of resource issues, and that it has, in fact, hurt us. I mean, 
that's--these are the folks we depend upon to lead us in that 
regard----
    Ambassador Negroponte. Right.
    Senator Corker [continuing]. And certainly have been 
hamstrung by some of the other efforts. And, again, I don't 
want to take issue with that, it's just an observation. I think 
you would agree with--do you not agree that we've been----
    Ambassador Negroponte. I think I would say that we're doing 
the best we can in both places, and they're both important, 
Senator.
    The second thing I'd say is that there's been a rather 
sharp increase, in the last couple of years, in the assistance 
levels to Afghanistan, whether it's road-building or other 
types of aid. And I think another development in Afghanistan 
that's been good in the last couple or 3 years has been the 
emphasis on increasing the competence and capability of the 
Afghan security forces.
    Senator Corker. On the military side, but not at the police 
level. That's where we really----
    Ambassador Negroponte. Yes. And that police is an area that 
we hope that some of our NATO allies will, maybe, come up with 
more offers of assistance. It's an area where we think they can 
be helpful.
    Senator Corker. But, back to the statement that was made, 
what do you think that did, in fact, or has, in fact, affected 
Musharraf in his efforts as it relates to terror, versus just 
trying to shore up his own political base?
    Ambassador Negroponte. Senator, I was the Ambassador to the 
United Nations in 2001, when President Musharraf came to New 
York, had his first meeting with President Bush in November of 
that year, and, I think, ever since that time, he's been 
committed in this effort against violent extremism. And he made 
his famous speech there, at the end of 2001, and I think he's 
been strongly committed ever since. So, I don't think I would 
agree that he has somehow waned or relented in his effort on 
this.
    Senator Corker. I know my time is up. I would just say 
that, in meeting with our country team there on the ground, and 
certainly talking with our CIA operatives there, I think there 
is a tremendous disconnect between the leadership of Pakistan's 
view of where we are, as it relates to fighting terror, and our 
own CIA view of that. And I think there's a huge disconnect 
there. And hopefully, as we move into new leadership there, 
with a new Prime Minister, those can come into sync more fully.
    But, again, I want to say, in general, I think we've moved 
along in a very good way, as it relates to progress there on 
the elective side. I thank the Senators for going over and 
making sure that the elections were focused on the proper way. 
And I think we have an opportunity for great progress there.
    Thank you very much.
    Senator Hagel. Mr. Chairman, may I respond to something 
that the Senator from Tennessee said in regard to his 
observation about force structure in Afghanistan?
    You recall, as does Senator Kerry, that, when we were there 
last week, we were told, by a very senior general, that he 
would require an additional two infantry brigades in the south, 
with a two-star billet, in addition to the 3,200 marines going 
in there. And I think it addresses part of what Senator 
Corker's comment was about resources in Afghanistan. This was 
not a Senator saying this; this was a rather senior general--
not saying he wished we could do it, he said, straight out, 
``We have to do it.''
    The Chairman. And that he knows he can't do it, in terms of 
getting the troops. I apologize for the----
    Senator Boxer. Yes, sir.
    The Chairman [continuing]. Interruption.
    Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    I actually want to follow up on your opening--the points 
you made about funding. And today, there's an article--and 
welcome, Mr. Secretary--there's an article in the British press 
with the headline, ``Pakistani Military Misspent Up To 70 
Percent of American Aid.'' It goes on to say that, ``American 
officials processing the payments at the Embassy in Islamabad 
have concluded that Pakistan's expense claims have been vastly 
inflated. According to an official, `My back-of-the-envelope 
guesstimate is 30 percent of the money that they requested to 
be reimbursed was legitimate,' '' so 70 percent was not. The 
official said he didn't know what happened to the remaining 
$3.8 billion, but suspected that some of the money might have 
been spent on F-16 fighter jets or, ``a new house for an army 
general.'' The Pakistani military replied that, ``We've never 
received any formal complaint about this.'' Every month, the 
Pakistani's expense claims of about $80 million to the U.S. 
Embassy in Islamabad; no receipts are provided to support the 
claims, and the money is paid directly to the Finance Ministry.
    Now, here's the thing. The American people are getting a 
bit impatient. We've got $9 billion that's missing in aid to 
Iraq. And now we hear this. The American people are being told 
that President Bush is cutting everything that they care about, 
including, let's see, funds for after-school programs. We're 
supposed to be spending $3 billion on these programs, but we 
are actually spending less than $1 billion. Millions of kids 
can't get in. The President is not even willing to spend $1 
billion a year on these programs, but we're losing track of 
multiple billions of dollars in Iraq.
    So, I guess I need to hear from you--what are you doing to 
address this?
    Ambassador Negroponte. Right. And earlier, Senator--and I 
can't recall whether you were here or not, but I did offer a 
briefing to the chairman on this whole issue of coalition 
support funds, but I said we'd have to work out as to whether 
it would be us, in the State Department, or the Department of 
Defense, since it's basically their moneys.
    But, let me make a broad point, which is that we--in the 
case of these coalition support funds--have provided over the 
years, it's been to compensate Pakistan for the expenses it has 
incurred in providing military and logistical support in the 
war on terror. And, as I mentioned earlier, they have deployed 
something like 100,000 troops to their border area, which is 
not a trivial amount.
    Senator Boxer. OK. Mr. Secretary, I don't--I want us to 
have a strong, cooperative relationship.
    Ambassador Negroponte. Right
    Senator Boxer. I don't question that. I'm questioning some 
fraud and abuse that could be going on, what American officials 
are saying might be happening. Here is another quote: ``The 
road could be paved with this money.'' All I'm saying is, I 
look forward to that briefing.
    I ask unanimous consent to place into the record this 
article in the British press that says 70 percent of the money 
may be being misspent, and also the chart that shows how much 
money we're talking about, because it's a lot more than this $6 
billion, when you go to the other accounts.
    The Chairman. Without objection, it'll be placed in the 
record.
    Senator Boxer. And so, I really do look forward, Mr. 
Chairman, to working on this with you as we see this 
administration slashing the budget for the American people.
    Now, I also feel very disturbed by your seeming ambivalence 
about an independent judiciary. Again, we're spending billions 
of dollars in Iraq to set up a judiciary. The Pakistani 
President--Pervez Musharraf--dismissed the judiciary. Imagine 
what would happen if President Bush went to the microphone and 
said, ``Today, I'm firing the Supreme Court, and all the judges 
can go home.''
    Now, the fact is, when we had a problem with the U.S. 
attorneys it caused an uproar. You saw what happened when we 
had a problem with U.S. attorneys being fired. We still haven't 
gotten to the bottom of that.
    I would ask unanimous consent to place into the record a 
CRS report, which says, ``Reseating the pre-November 3rd 
Supreme Court would almost lead to Musharraf's removal from 
office, as that court appeared close to finding his October 
reelection as President unconstitutional.'' I want to put that 
in, as well as another statement, here, ``By some accounts, the 
administration remains wedded to a policy that would keep the 
embattled Musharraf in power, despite his weakness and lack of 
support.''
    The Chairman. Without objection, it will be placed in the 
record.
    Senator Boxer. So, I just hope you'll rethink this, because 
we don't seem to be sincere when we're quiet on the importance 
of an independent judiciary. It just doesn't meet American 
ideals and what we stand for in our Constitution.
    So, I'd like us to rethink this. We cannot base our support 
for an independent judiciary on what they might find about 
President Musharraf. I just think it's bigger than that. And if 
you look at--and I'd ask unanimous consent to place part of a 
report from ``Terror-Free Tomorrow: the Center for Public 
Opinion,'' in the record--just their summary page, if I might.
    The Chairman. Without objection.
    Senator Boxer. There are some really wonderful things in 
the findings. The report basically finds that the Pakistani 
people really want to see Osama bin Laden and the terrorists 
gone. They also are very concerned that American policy is 
propping up Musharraf. This is not good for us. It is not good 
for us.
    So--I will give you an example. And I will finish with 
this--in August 2007, Secretary Rice said, ``I think that we 
and Pakistan have a very strong interest together in capturing 
or killing high-value targets.'' And she said, ``Musharraf 
himself is at risk from extremists. We all have this in common, 
to get the terrorists.'' Yet, President Musharraf recently 
said, on a tour through Europe, regarding the fact that Osama 
bin Laden and al-Zawahiri are still at large, that it ``doesn't 
mean much.'' He said, ``it doesn't mean much.'' According to 
the Associated Press, Musharraf attributed his feelings about 
the two's continued freedom--bin Laden and Zawahiri--to the 
fact that the two are less a threat to his regime than Taliban-
linked militants. He even went on to elaborate that the 100,000 
troops that you referenced are not going around trying to 
locate Osama bin Laden and Zawahiri. He said that.
    So, it's outrageous, and it runs contrary to what Secretary 
Rice said in August 2007. The fact that these al-Qaeda leaders 
are still on the loose is distressing to all Americans, 
especially the families and loved ones of those who died on 9/
11. So, I think your defense and your support of Musharraf, and 
talking about the 100,000 troops, when Musharraf himself has 
said that those 100,000 troops aren't being used to catch 
terrorists, is just very concerning.
    So, I have one last question. How do you reconcile 
Musharraf's statements that he's not worried about these two 
being loose, with what Secretary Rice said about our joint 
commitment to capturing high-value targets?
    Ambassador Negroponte. Right. Well, I can't--he'd have to 
address that, and I'd have to see the context in which he said 
all of that. It was a question-answer situation. But, what I 
would say is, we've had good cooperation with them on this 
issue of al-Qaeda. I recall, as Director of National 
Intelligence, being very impressed by the cooperation that we 
had with the Government of Pakistan, particularly with 
counterparts of my then-organization in seeking out extremist 
militants. And I think it's worth recalling that Mr. Musharraf 
himself has been the victim of some of these militant 
assassination attempts.
    Senator Boxer. That's what Secretary Rice said.
    Ambassador Negroponte. So, I think that we are essentially 
on the same page with the Pakistani authorities on this issue.
    Senator Boxer. Mr. Chairman, I'd just like to put in the 
record, because you said you didn't see it--it's from FOX News. 
The story has Musharraf saying that ``The 100,000 troops we're 
using are not going around trying to locate Osama bin Laden and 
Zawahiri, frankly,'' and that, ``it doesn't--it doesn't mean 
much,'' that they're running around loose. This is really 
outrageous.
    And our President is still saying how strongly he supports 
Musharraf. I'd put that in the record, a comment made after the 
elections.

[Editor's note.--The above mentioned comment was not available 
at the time of printing.]

    Senator Boxer. You know, so it's just concerning to me, Mr. 
Chairman.
    The Chairman. Thank you, Senator.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I am very supportive of what 
Chairman Biden and Ranking Member Lugar said with regard to the 
coordinated financial assistance to Pakistan. And I'm very 
supportive of the $150 million assistance provided to the 
Federally Administered Tribal Areas in Pakistan. But, I do have 
a question with regard to that.
    In Iraq, last month, I traveled with a PRT team into 
Ghazaliya, along with a combination of State and military 
officials and watched the application for, and the distribution 
of, microgrants, which is part of the PRT's goal to bring 
economic activity to Iraq, and was just amazed with the level 
of accountability and the results those microgrants made in 
that program.
    Here is my question. I know we're not going to have 
military personnel of the United States in Pakistan, so we 
don't have that program for distribution and accountability of 
economic assistance. What type of NGO and what type of 
accountability are we going to have on the distribution of 
those funds in the tribal areas in Pakistan?
    Ambassador Negroponte. I'd like to submit a longer reply--
--
    Senator Isakson. Sure.
    Ambassador Negroponte [continuing]. To your question, for 
the record, Senator.
    [The written response of the State Department follows:]

    The State Department or U.S. Agency for International Development 
monitors assistance in the tribal areas by following standard Federal 
procurement and financial management regulations, conducting third 
party as well as inspector general performance and financial audits of 
contractors and grantees, and meeting all provisions of the Foreign 
Assistance Act, including preobligation requirements.
    The U.S. Agency for International Development and the Pakistan 
Government have been working together to develop joint evaluation plans 
for programs in the tribal areas as well. That includes collecting 
baseline data and regular monitoring and evaluation plans. Several 
large programs, including the Capacity Building and Livehoods 
contracts, have been recently signed. One of the first things the 
contractors will do is collect baseline data to monitor and evaluate 
the success of the programs.

    Ambassador Negroponte. But, in brief, I would say, first of 
all, the--our aid programs are administered under the 
applicable Federal rules of accountability.
    The second is that we do have AID personnel stationed up in 
Peshawar, adjacent to the FATA area. And, third, Ambassador 
Patterson has also designated a position, in her Embassy, of a 
coordinator for our assistance programs to the FATA area, who 
will also have that kind of oversight responsibility. So, we 
will certainly be mindful of the need for accountability--
oversight and accountability.
    Senator Isakson. Is the--on that--in addition to that, is 
the type of assistance contemplated similar to the micro-grants 
and -loans that are being made in Iraq for business 
development--small business?
    Ambassador Negroponte. I don't know that for a specific 
fact, but my understanding is, it's going to be for the range 
of civic development, community development type programs.
    Senator Isakson. It's my understanding, one of their goals 
is to try and bring some employment, economic benefit, and 
economic sustainability to the tribal areas.
    Ambassador Negroponte. Absolutely. And, of course, that's 
why these Reconstruction Opportunity Zones would be so helpful, 
as well.
    Senator Isakson. The second thing I want to mention, you 
may not want to comment on but you can if you want to, is in 
regard to terrorism and extremism in Pakistan. In Atlanta, 
Georgia, we had an incident last year, where two Islamic 
students at Georgia Tech were arrested, and a cell was broken 
up--thanks to our intelligence under FISA and the Patriot Act, 
in communications between Islamabad, Atlanta, and Toronto--
successfully before its activation. Those communications were 
coming out of Pakistan, out of Islamabad. I want to just make 
the point that we leave ourselves, I think, at some risk, with 
the FISA law now being not extended. And one of the reasons 
that I was so supportive of reauthorizing this measure on the 
floor of the Senate was because of that singular experience we 
had in our city, to bring up a close and personal experience 
and how important it is to have that type of intelligence.
    And there is al-Qaeda in Pakistan, and it is operating, and 
it is central in the war on terror. And I'm appreciative for 
the cooperation that we have had, and I think it's critical 
that the State Department engage and maintain our relationship 
with this new and emerging Government in Pakistan, because I 
think it's probably the key area in the world in the war on 
terror.
    Thank you, Mr. Chairman. That's all I have.
    The Chairman. Thank you very much.
    Senator Cardin, thank you for your patience.
    Senator Cardin. Well, thank you, Mr. Chairman, I appreciate 
it.
    Mr. Secretary, I thank you for your long record of service 
to our country in so many different roles.
    There's a lot we need to understand from this election, and 
if I had to point to one area that offers great promise--the 
rejection of extremism--particularly in the northwest area. And 
it seems to me that we should be looking at modifying U.S. 
policy and expectations as to what we expect the new leaders of 
Pakistan to do in identifying ways to root out the terrorist 
networks, particularly in the tribal areas.
    I'm frustrated and I think Americans are frustrated, that 
we haven't been able to make more progress in rooting out the 
areas that seem to be without control, where al-Qaeda and 
others can operate without real accountability.
    There's going to be a new Prime Minister in Pakistan. 
Clearly, the power of the President has been changed. There'll 
be a new Parliament. What should be our expectations of what 
these leaders can do in order to gain greater control of the 
territories and root out these training cells and operational 
support for terrorist organizations?
    Ambassador Negroponte. Well, I guess the first point I want 
to make, Senator, is Pakistan is a sovereign country, and, in 
the last analysis, whatever they do to deal with these issues 
has got to be based on their government's perception and their 
people's perception of their own best self-interest.
    Senator Cardin. And I agree with that. My point is that 
U.S. policy can affect that. And, of course, we have the 
involvement, not only in the United States, but the 
international community, in trying to support efforts within 
Pakistan. The chairman has mentioned that; I fully agree that 
it needs to be reevaluated.
    Ambassador Negroponte. Right.
    Senator Cardin. So, using all of our tools, it seems to me 
we can have an impact. My question is, What can we expect?
    Ambassador Negroponte. Here would be my answer to that. 
First of all, I think that whatever we do should be done on a 
cooperative basis. I think that it is harmful when people--very 
often, unidentified sources--talk about us somehow taking this 
matter into our own hands and acting unilaterally. I think all 
that does is get people's backs up on the scene. But, I think 
what we can expect is that--we would like to work with the 
Government of Pakistan to help them in our social and economic 
programs in the Federally Administered Tribal Areas and in 
other parts of Pakistan, to help deal with the root causes, if 
you will, of this militant extremism. We would also like to 
work with them on the security front, whether it's intelligence 
or the military, to help improve their counterterrorism and 
their counterinsurgency efforts. And so, the expectations would 
be, really, to strengthen our collaborative efforts together 
and for them to be open to that kind of cooperation with the 
United States.
    Senator Cardin. I would just make the observation. Those 
who participated in the elections, their votes were more 
encouraging than the current leadership in Pakistan, as to 
taking on the extremist groups. It's clearly the right thing, 
but it's also, perhaps, the popular thing within Pakistan. And 
that may not have been the reading of the leaders, prior to the 
election.
    I want to comment on Senator Corker's point, because it's 
clear to me that our efforts in Iraq has an impact on what's 
happening in Afghanistan, it's having an impact on what's 
happening in Pakistan. And many of us think that we're not 
focusing on--as we should--on terrorists, because of the way 
that Iraq is being handled.
    The Iraq coalition is a small coalition compared to the 
international support we have in Afghanistan and as it relates 
to Pakistan. So, it seems to me, and most Americans, that 
what's happening in Iraq is affecting our effectiveness in 
dealing with Afghanistan and the cooperation we're receiving in 
Pakistan. And I just welcome your thoughts on that, 
understanding your position in the administration. We want to 
have an effective policy in Pakistan. The purpose of this 
hearing is, given these new opportunities brought about by 
these elections, how we can have programs to deal with 
terrorists operating in this region and engage the 
international community as effectively as we can?
    Ambassador Negroponte. Of course, in addition to my 
position in the administration, I'm a former United States 
Ambassador to Iraq, so I have a particular personal experience 
in that regard.
    Senator Cardin. And I met you there. I thank you for your 
hospitality when I was in Baghdad----
    Ambassador Negroponte. Right.
    Senator Cardin [continuing]. When you were Ambassador.
    Ambassador Negroponte. So no matter what anybody thinks 
about the merits or demerits of us having gone in there in the 
first place, I think we all recognize the importance of now 
getting it stabilized and getting it on the right footing. And 
Ambassador Crocker and General Petraeus will be coming back 
shortly to brief the Congress and the American people on the 
situation there, and I think they're going to be presenting a 
fairly hopeful and encouraging report.
    But, as far as Pakistan is concerned, I think the important 
point of departure, Senator, is the recognition of its 
importance in this global situation, and the importance of 
Pakistan, not only for itself, but for, also, the situation in 
Afghanistan. And it sounds to me, from the discussion we've had 
this morning, that we're sort of on the same page in that 
regard, so what we've got to do is look at ways, going forward, 
to be as supportive as we possibly can. I don't know what else 
to say, at this stage.
    Senator Cardin. Well, I thank you. I just think there is a 
new opportunity here, because of the elections. I hope we have 
a way to energize the international community and working with 
the sovereign country of Pakistan, to have higher expectations 
of what can be achieved in the tribal and the border areas as 
far as eliminating the safe havens that currently exist.
    Ambassador Negroponte. That does remind me of one other 
point that I think is worth mentioning--and you've suggested 
it, yourself--and that is, we also need, in our dialogue--and 
I've been doing this--trying to do this more and more--in our 
discussions with friends and allies around the world, we need 
to draw their attention to the importance of Pakistan, in 
addition to whatever support they might be providing to some of 
these other critical countries. But, in Iraq, Afghanistan, 
Pakistan--our help to these countries is vital, each of them, 
to the United States national interests.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso, thank you for your 
patience.
    Senator Barrasso. Thank you very much, Mr. Chairman. And 
thank you for making me feel so welcome, as the newest member 
of this committee.
    The Chairman. I was just, actually, saying very nice things 
about you to the Senator--Senator Lugar. I am impressed. And 
I--presumptuous of me to say that, but I am, and I----
    Senator Barrasso. Thank you.
    The Chairman. And the floor is yours, sir.
    Senator Barrasso. And thank you very much, Mr. Ambassador. 
I know many of the questions have already been asked. Just two. 
First, regarding the elections and the multiple parties trying 
to get together with the coalition. I know you want to continue 
to focus on working with the new Parliament to ensure 
Pakistan's cooperation with us in fighting terrorist groups. 
You may have addressed some of it already. Do you believe that 
there are allies that we have, within the new government that 
is forming, who will continue to work with us?
    Ambassador Negroponte. Well, we certainly look forward to 
working with whatever government emerges. I can't tell you the 
precise coloration, if you will, or the specific individuals, 
because we don't know the answer to that question yet. But, I 
think, given the rejection of the Islamist parties, I think the 
general tendency in the country toward moderation and secular 
government--I would hope and expect that we would be able to 
work as well, if not better, with the forthcoming government 
than we have in the past. Certainly hopeful.
    Senator Barrasso. Yes. And then looking at the history of 
Pakistan, and the role of the military involvement over the 
years. We have a new military leader in November 2007, who was 
appointed the general by Musharraf. Do you see the military 
playing an additional part in Pakistan's future as we've seen 
in the past? And how do we go about with that?
    Ambassador Negroponte. Right. And I think the point here is 
that the military is a very important institution in Pakistan, 
particularly with regard to maintaining security in that 
country. I think it was a significant development that 
President Musharraf stepped down from the military, took off 
his uniform. And my sense is that the current leadership of the 
Pakistani military is very focused on their military tasks and 
on increasing their professionalization. And we want to be 
supportive of that. There's work to be done together in helping 
them increase their professionalization, their training, and 
their counterinsurgency capabilities.
    Senator Barrasso. Thank you very much, Mr. Ambassador.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Barrasso follows:]

  Prepared Statement of Hon. John Barrasso, U.S. Senator From Wyoming

    Thank you, Mr. Chairman.
    Chairman Biden, Senator Lugar, members of the committee, I am 
honored to be here today. Through this committee's distinguished 
history, members have played an important role in shaping relations 
with world leaders and promoting our foreign policy objectives. We live 
in an ever-changing world and this committee has a responsibility to be 
diligent in supporting and directing the United States role as a world 
leader.
    Building sound relationships with our allies and others in the 
international community effectively aids the United States as we seek 
to resolve conflicts and address humanitarian crises. As issues arise, 
it is important that this committee provide appropriate oversight and 
leadership to ensure that American values of liberty and justice are 
evident in our policy decisions.
    While Americans are generous in aiding those suffering from 
disease, political unrest, war, and natural disasters, it is important 
that the committee support policies that ensure taxpayer dollars are 
used wisely. As conflicts of all kinds continue to wreak havoc in the 
lives of so many people around the world, the United States will work 
with our allies to address regional and global conflicts, particularly 
those that have a direct impact on our Nation's interests.
    I am pleased to hear the Honorable John Negroponte's testimony 
regarding the current situation in Pakistan. Pakistan has proven to be 
an ally in the war on terrorism and plays an important role in the 
stability of South Asia. The elections held this month in Pakistan 
produced a new government and Pakistan's leaders are negotiating the 
direction their country should take.
    It is vital that the U.S. build upon our relationship with Pakistan 
and support the Pakistanis' efforts to have a voice in their own 
government. Determining our Nation's level of involvement in any 
country is difficult, but also a vital aspect of our Nation's interest 
in maintaining our security and promoting freedom. Due diligence must 
be given in all aspects of our continuing relationship with Pakistan.
    I look forward to discussing this issue further.
    Again, I am honored to serve on this committee and I value this 
opportunity to serve Wyoming in this capacity.

    The Chairman. Thank you.
    Senator, do you have any further questions?
    Senator Lugar. Thank you, Mr. Chairman, if I----
    The Chairman. Sure. Yes, please.
    Senator Lugar. Mr. Secretary, as you say, we've got to see 
how the government will form. There are press reports today of 
a demand by the leader--the two major leaders of parties, that 
there be a meeting of the assembly right away. One news account 
says that the election results are not official in all of the 
constituencies, thus far, although a vast majority apparently 
have been decided, and it would appear that, clearly, the two 
major--well, three parties have approximately a two-thirds 
majority, or maybe more. And the reason that this is being 
stressed is that they're saying, under the Constitution, this 
would give this assembly the power to change the judiciary; for 
that matter, to impeach President Musharraf. Now, whether 
that's the will of the group when they meet is another 
question.
    But, we've been, you know, advising you, and you've been 
advising us, that we are already doing a good number of things, 
in terms of taxpayer dollars, with regard to the military, or 
economic support, and we have encouraged, perhaps, further 
briefing by you about accountability of funds, as well as other 
issues that we've raised, so that we're all on the same page, 
in terms of a very timely response.
    But, I'd just ask you, What do you foresee as the timing of 
events in Pakistan, or do you have any prediction of this? In 
other words, how soon is it likely that this assembly will come 
together, that there will be fundamental decisions made about 
the leadership and the institutions of the country? And are 
these likely to be so disruptive that whatever new policies or 
augmentation of what we're now doing could be, sort of, lost in 
the process of Pakistani politics for a period of time?
    Ambassador Negroponte. Right. I believe, Senator, the first 
step is that the election results need to be certified. And 
it's conceivable--I'm not sure whether that has to be done 
before the legislature, or not. Perhaps it does. So, maybe 
that's what that is about.
    But, my understanding, from talking to Ambassador Patterson 
this morning, was that she expected that--although she wasn't 
certain--that a government would likely be formed within the 
next 2 weeks.
    Senator Lugar. Two weeks.
    Ambassador Negroponte. Perhaps sooner. Obviously, we would 
hope that, however this process unfolds, that it happen in a 
way that reflects that same moderation that permitted a 
relatively peaceful conduct of these elections, and permits 
Pakistan to go forward in a way that cannot be exploited by the 
enemies of democracy, including the terrorists.
    Senator Lugar. That leads to my comment, and that is, To 
what extent, while this process of 2 weeks, maybe more, is 
going on--as Ambassador Patterson has noted, and we are hopeful 
the same spirit of moderation might prevail. But, is that 
spirit more likely to prevail if there are at least some 
announcements coming from the United States about the emphasis 
of what we wish to do? In other words, our public recognition 
of the possibilities of moving to assist the economy.
    Now, you've pointed out we have some multiyear 
responsibilities and commitments, but these are, I think, not 
well known to the American public, quite apart from the 
Pakistani public. Maybe even the testimony you have today, it 
would reiterate that we have these commitments already, and 
that you are working with the Congress to think through what 
more we can do. It might be reassuring, might help the 
stability or encourage moderation that you're discussing, as 
opposed to our taking a standoffish view, seeing how it all 
works out, but then being dismayed that, unfortunately, there 
were currents in Pakistani politics, that are not involved in 
the election, that are disturbingly surprised.
    Ambassador Negroponte. Well, first, I think--I would hope 
this hearing could be construed in the way that you suggest, as 
a----
    Senator Lugar. Yes.
    Ambassador Negroponte [continuing]. A relatively--as a 
positive statement about our interest, and a constructive 
statement about our interest in Pakistan.
    The other specific point I would mention is that I gather 
that introduction of this Reconstruction Opportunity Zone 
legislation may be fairly imminent, and I think that would 
certainly be well received in Pakistan, and demonstrate the 
fact that we're interested in being supportive of both 
Afghanistan and Pakistan's economic development.
    Senator Lugar. Well, I think you're very correct. And, 
without being self-serving about this, I would say that the 
bill that Senator Biden and I have introduced and has come from 
this committee has had a hold on the Senate floor for a while. 
That's the reason why a large majority of Senators who would 
like to express exactly what you are saying today have not had 
that opportunity. So, I'm hopeful that we can work with the 
House legislation, with the leadership of the Senate. I count 
upon my chairman to be persuasive with regard to that, because 
clearly this is timely, I believe, to reinforce all that we're 
saying today, in the event we appropriate the money, the means 
of spending it, and doing so properly, using both Defense 
Department people and State Department people, and others, for 
that matter, in a team effort, is really important.
    Ambassador Negroponte. And that--if you're referring to 
your civilian stabilization initiative, I think that's a 
groundbreaking idea. I really do, Mr. Chairman.
    Senator Lugar. Thank you.
    The Chairman. Thank you.
    If I could follow up, just very briefly. And this falls in 
the category of above my paygrade. But--and mildly presumptuous 
to suggest to you, Mr. Ambassador, because I know you know how, 
sort of, voracious the foreign press is in some of these 
countries.
    One observation, which I'm sure is not instructive, but 
it--just a reminder--it astounded me, and, I think, my two 
colleagues, how uniform the press in Pakistan was when we held 
a departing press conference where there were--hundreds?--I 
mean, as large a press conference as I've ever attended, other 
than the Bork hearing--and there was almost an anger--there was 
an anger expressed, in the tone of the questions coming from 
the press, on the failure of the three of us to immediately 
call for the immediate resignation of Musharraf. And almost 
every question asked--and, unfortunately--well, not 
``unfortunately''--we literally had to catch a plane, so we 
couldn't stay--was in the context of the promoted notion by the 
press that the administration was standing foursquare, 
notwithstanding the elections, behind Musharraf exercising a 
similar kind of power he's exercised in the past. I know that's 
not true. I know that's not the administration's position. But, 
in a sense--the point that Senator Lugar made--I strongly urge 
you to consider, to the extent that you can affect the White 
House's perception, as well, that--I truly believe, if you 
were--if the administration were to put forward a statement, 
essentially acknowledging Musharraf's comments that he made in 
the editorial in the--I guess, the Washington Post, or the New 
York Times, I can't remember what editorial he wrote--and the 
expectation that you believe he will, in fact, recede to the 
position of President and not Prime Minister, which is where 
the power is. If you were to state that you were working with 
the Congress to increase economic assistance, if you were to 
state that you were prepared and anxious to work with the new 
coalition government--people don't know that in the press in 
Pakistan. It's surprising.
    Now, I know we have a very fine Ambassador. I am truly 
impressed with her. All of us are. I think she's one of the 
finest we have. Obviously, she'd know better than either 
Senator--myself or any of us here, whether the characterization 
I have just made about what I think average Pakistanis reading 
the Pakistani press believe about our position, including our 
position on the court. And I really think it's an opportunity 
to begin to change perceptions on the ground.
    But, that's my perception. I would urge you--I know you 
would--I would urge you to speak with our Ambassador to see 
whether or not what I've said is accurate. And you would know 
as well as anyone.
    Second point I'd like to make, in closing--the reason we 
were waiting, I thought Senator Menendez, who's in another 
committee, was going to come back; he's not able to, but I'm 
sure he may have a few questions to submit for the record.
    Two closing observations. You referenced that we're doing 
more in Afghanistan. And we are doing more in Afghanistan. One 
of the most interesting things I've found, I say to my friend 
Dick Lugar, is that everyone we spoke to in Afghanistan, on the 
American side, from young soldiers we referenced, to our 
Ambassador, to the military, all started with an interesting 
opening comment, some version of what I'm about to say. We 
acknowledge we haven't done much from 2001 to 2006; we dropped 
the ball. Some version of that. But, from mid 2006 to now, we 
have begun to get this together. I found that refreshing, and I 
found that--not in an ``I told you so'' way, but I found it 
refreshing that there was a recognition that a lot more had to 
be done.
    But, I just put this one little statistic in your head--
which I think is, at least from my perspective, a way of 
looking at the effort. From 2001 to today, we have spent the 
same amount of money and resources for reconstruction in 
Afghanistan that we spent in 3 weeks--3 weeks--on just military 
operations in Iraq. This is not to suggest--which I think we 
should, but I'm not making the case we should do less in Iraq, 
but I am just making the case that if the consensus you, kind 
of, heard from members here, on both sides of the aisle, that 
we think the fault line in the war on terror is on that border 
between Afghanistan and Pakistan, we think a great deal more 
has to be done in Afghanistan, both militarily and 
economically. And, again, I'm not suggesting you agree or 
disagree, I just want to make that observation.
    No matter how much more we've done, when you think of it in 
terms of 3 weeks is--as much is spent on military operations in 
Iraq as we've spent in 6 years on reconstruction in 
Afghanistan, it's kind of--it's a bit of a--it's a bit of a--
it's not--it exaggerates, in some ways, but it really 
illustrates how much has to be done.
    But, I apologize, I see my friend Senator Nelson is here. I 
recognize the Senator. The Senator said he likes us very much, 
Senator, but this seniority system of asking questions, he's 
not as crazy about. I felt that exact way 'til I became 
chairman. [Laughter.]
    Senator Bill Nelson. I understand.
    Well, I have been--let me just be very complimentary of 
you. I came here so that I could hear you and hear the 
Secretary. And I came early, and not only did I listen to you, 
I asked for a copy of your remarks, which I have read. And----
    The Chairman. I'm about to reconsider this seniority thing. 
[Laughter.]
    Senator Bill Nelson. Well, I would just be curious if the 
Secretary would reflect specifically upon your remarks, Mr. 
Chairman. And I'm going to reread your remarks from your 
opening statement. And Senator Biden said, ``I believe we 
should, first, triple nonmilitary assistance, and sustain it 
for a decade, from about $500 million to about $1\1/2\ billion. 
This aid should be focused on schools, roads, and clinics, and 
on expanding the development of the tribal border areas. 
Second, give the new government, if it's formed consistent with 
the democratic principles, a democracy dividend of $1 billion 
above this annual assistance to jump-start progress. And, 
third, demand transparency and accountability in the military 
aid that we continue to provide.''
    Now, I think we can stipulate that we all agree to No. 3. 
I'd like to know your comments, Mr. Secretary, to the 
chairman's recommendations on one and two--triple nonmilitary 
assistance, especially to get it to schools, roads, and 
clinics; and, second, to give the new government a democracy 
dividend of a billion dollars above this annual assistance to 
jump-start progress.
    Ambassador Negroponte. Right. Senator, as I said--it may 
have been when you weren't in the room--I said that this was a 
proposal we were looking at. At the same time, of course, we 
have our own budget proposal, at the moment, before the 
Congress, so I'm not in a position to say that, yes, we should 
modify that. But, what I did point out was, two things. First 
of all, that our 5-year, $3 billion assistance program to 
Pakistan from fiscal 2005 through fiscal 2009 will be expiring 
in 2009, so I think we have to start thinking about what we're 
going to be doing in the future years. And this election may, 
indeed, be a point of departure. And the chairman's suggestion 
may also be a point of departure for taking a hard look at 
that.
    And the other was to say that I think that the chairman's 
suggestion reminds us--and I think it highlights--the 
tremendous importance of this country--Pakistan, that is--to 
this global war on terror, and to the intrinsic importance of 
Pakistan itself. But, I wasn't in a position to explicitly 
agree or disagree with the idea of tripling nonmilitary 
assistance or paying a democracy dividend.
    Senator Bill Nelson. Well, I'll never forget--and I'll just 
stop with this, Mr. Chairman--early on in this decade, I was 
visiting Pakistan, and I so well remember our Ambassador, a 
career Foreign Service officer, expressing to me, in that 
visit, her frustration that our aid was not getting out to 
build those schools and to get those curriculum materials into 
the schools, that it was getting siphoned off into other 
things. And so, when you say ``schools, roads, and clinics,'' I 
certainly agree.
    And it's not only Pakistan. You know, it'll be most of the 
Third World that the assistance that we need to do is to get it 
there. And this is not the first time that somebody has raised 
this issue; it's a continuing problem.
    The Chairman. Well, if I can say to the Senator, before I 
yield to--you still have time, but before I yield to Senator 
Menendez--I do recall you coming back and making that assertion 
before the committee.
    What I would say to the Ambassador, Senator Lugar and I, 
before he left, we've agreed, with our staffs, to work on a 
joint bill that we would introduce along those lines.
    And I'd invite the Senator to join us and give his input on 
what that should look like. But, hopefully, we can, in light of 
the changed circumstances--the budget was offered prior to the 
election, and this may be a possibility. We can work out a 2009 
budget, here, and maybe, immediate, in the supplement, some 
additional help. But, I very much look to the Senator for his 
leadership on that, because I do recall you coming back, making 
the statement. I remember you saying to me that the Saudis had 
built 7,000 madrassas in that region, and why weren't we 
building schools in that region? So, I look forward to his 
participation.
    Senator Menendez, thanks for coming back.
    Senator Menendez. Thank you, Mr. Chairman. And thank you 
for holding this hearing. It's----
    The Chairman. Thanks.
    Senator Menendez [continuing]. Incredibly important. And I 
want to echo some of your remarks that our policy should be to 
Pakistan, as an entity, not to a person. And I think it's been 
one of our mistakes.
    Mr. Secretary, thank you for being before the committee. 
And, unfortunately, I had another hearing at the same time, 
with Chairman Bernanke; and the economy is important, but so is 
our policy toward Pakistan, so I'm glad to be able to make it 
back.
    You know, in December we had a hearing, under the auspices 
of the full committee's--with the chairman's authority to have 
us have a hearing of the subcommittee on our aid issues. And, 
you know, when I look at the amount of money that we have spent 
in Pakistan to date, and now, looking at the results of the 
election, and looking at where we go from here, I am concerned, 
as the administration presents its latest requests to the 
Congress, whether we are headed in the right direction. I sent 
a letter to Secretary Rice on the 21st in which, you know, I 
outlined some of my concerns. Certainly, when I look at anti-
Americanism, when I look at what has happened, in terms of the 
Pakistan-Afghanistan border and the FATA region, I really 
wonder--and so, now I'd like to get a sense of you, do we know 
how much money has actually been spent in the FATA region--of 
U.S. taxpayer dollars----
    Ambassador Negroponte. Well, in this----
    Senator Menendez [continuing]. Toward our----
    Ambassador Negroponte [continuing]. Fiscal year, the plan 
is for $150 million.
    Senator Menendez. Yes. No, that's----
    Ambassador Negroponte. You're asking----
    Senator Menendez [continuing]. This fiscal year. I'm asking 
what we've done----
    Ambassador Negroponte [continuing]. What's actually been 
disbursed?
    Senator Menendez. Yes.
    Ambassador Negroponte. I would have to submit that for the 
record.
    Senator Menendez. Well, if you would.
    Ambassador Negroponte. I certainly know that we've begun, 
you know, programs there. They're underway.
    Senator Menendez. Well, I'd like to know what we've 
actually----
    Ambassador Negroponte. Sure.
    Senator Menendez [continuing]. Spent. And how much do you 
think will be spent on development programs in that region?
    Ambassador Negroponte. In Pakistan?
    Senator Menendez. Well, particularly in the FATA region.
    Ambassador Negroponte. You mean, beyond the $150 million?
    Senator Menendez. Do you have a sense of what we have 
spent, to date? It's the same--you--you'd have to get that for 
the record, as well?
    Ambassador Negroponte. I think so, yes.
    [The written response from the State Department to the 
above questions follows:]

    The Bureau for International Narcotics and Law Enforcement has 
spent $160 million since 2002 in the border areas. This money funds our 
Border Security Program, which includes road and other infrastructure 
construction, provision of an air wing, training of law enforcement 
agencies, and commodity support, as well as our Counternarcotics 
Program, which includes crop control and demand reduction efforts.
    The United States Agency for International Development has spent 
$12.4 million in the tribal areas since 2002 (when USAID returned to 
Pakistan). We started slowly because the Government of Pakistan was 
still working on a comprehensive plan for development of the tribal 
areas, which it completed in late 2006. The initial money was spent on 
vaccinating children in the region for tuberculosis and polio and 
prividing health services to children. USAID also rebuilt 38 schools 
and provided water and sanitation facilities in several girls' schools. 
Significantly, USAID used a private sector construction company from 
the North West Frontier Province to work on the schools, to demonstrate 
that private sector companies from the settled areas of Pakistan can 
operate inside the tribal areas, with appropriate safeguards, and earn 
a profit. Finally, we also have supported Kushhali Bank, a microfinance 
institution, to open branches in all seven tribal area agencies.

    Senator Menendez. OK. Let me just ask you, What are our 
expectations--as we look at the new leadership in Pakistan that 
has been elected and, what is our expectation of their 
engagement? They've been critical of President Musharraf's 
policies in supporting the United States in its effort, 
particularly in the tribal regions--what do we expect from this 
new leadership in Pakistan as it relates to this region? I 
focus on this region--of course, there's a lot of different 
issues in Pakistan that are important, but, you know, we get 
our intelligence reports as the--publicly--aspects of it--and 
they clearly say that one of the greatest single challenges to 
national security in the United States is al-Qaeda's 
reconstituted strength in the Pakistan-Afghanistan border, 
where it is also suspected that Osama bin Laden presently finds 
safe haven. We look at the money that we have spent to date. We 
now look at a new leadership elected by the people of Pakistan, 
who seem to have a different view. So, the question is, What do 
we expect of this new Pakistani leadership, as it relates to 
being engaged with us in dealing with the terrorism that 
emanates out of this safe haven?
    Ambassador Negroponte. First of all, a point I made earlier 
and several times during the hearing, we plan to work with 
whatever government emerges from this electoral process and 
from the national assembly. So, that would be my first point.
    Second, whatever one might say about Pakistan's efforts 
against militant extremism, I think it is important to point 
out that they--they, themselves, have suffered a very high 
number of casualties, both military and civilian, in this 
struggle. And I think what we would hope to do with this 
government is work in partnership with them, and be helpful 
where we can, in their efforts to curb and bring under control 
militancy, which we know that they, themselves, reject. And I 
think one--that's one of the clear results of these elections, 
is that the Pakistani people, themselves, do not want this kind 
of militant extremism in their midst.
    Senator Menendez. Well, I appreciate your answer, but 
here's my concern. Congress has a fiduciary responsibility to 
the American people, both in terms of the expenditure of its 
tax dollars, as well as in the preservation of its security. 
And the bottom line is, $10 billion later, since 9/11, we have 
not prevented al-Qaeda from operating in a safe zone along the 
Pakistan-Afghanistan border; you know, we have rising anti-
Americanism; we have not, in my mind, pursued a policy that 
deals with the moderate center in Pakistan; and this FATA 
region is a huge challenge, notwithstanding--$10 billion later. 
So, I have--and then we have a terrible accounting process, 
where we can't seem to get a handle about what, in fact, we 
have spent, and how it has been spent, and, particularly, 
where, in fact, it has been spent, as it relates to the FATA 
region. So, before one can ask for more, one has to justify 
both the past, as well as make the case----
    Ambassador Negroponte. Right.
    Senator Menendez [continuing]. For the future. And that's 
the essence of my question.
    Ambassador Negroponte. No; I understand, Senator. The 
answer has several parts, but one part would certainly be, we 
don't know how much worse things would be if we hadn't gone 
through the efforts that we have gone through. For example, 
would we have been able to influence the Pakistani Government 
to send 100,000 troops into the FATA area? They've got two 
divisions there, as was being mentioned earlier. So, that's one 
of the results--or one of the acts for which we are providing 
these coalition support funds, the $5.6 billion that we've 
provided since 2001. They've done a lot of work against 
militant extremism. And in their own country they're revising 
their curriculum of these madrassas, for example, and of their 
school system, they're trying to secularize it. On the anti-
Americanism issue, we've got 500 students--I think it's the 
largest Fulbright Program of any of our academic exchange 
programs here in the United States, with Pakistani students 
coming over here. So, this is work in progress.
    But, I would submit to you that the situation is--has 
improved in a number of important respects, and I certainly 
would hate to speculate as to how much worse it might be, had 
we not been engaged at all. But, I think it would have 
definitely been worse.
    Senator Menendez. Well, Mr. Chairman, I don't want to 
belabor your--the time--and I appreciate it.
    But, you know, my--Mr. Secretary, you know, we can look at 
anything--any problem in our country, domestically or abroad, 
and say, ``Imagine if it would have been worse if we hadn't 
done this.'' The question is, spending billions to accomplish 
whatever your estimate of what has been accomplished is, 
compared to what has been accomplished, is the balance. And I 
would venture to say that many of us would say that we've far 
outspent what the accomplishments were. And if we think--
whether it be in Iraq, or whether it be in Pakistan--that 
spending billions of the taxpayers' dollars for a relative 
small return is the rate in which we make estimations, then we 
are in deep trouble. I think that there's a--there is a lot 
larger expectation. And I'm not just going over the past, I'm 
now looking prospectively. And it just seems to me, at least 
speaking for this one member, that there has to be a far more 
robust accounting, as well as a convincing, and a--hopefully, a 
changing of the dynamics as to how we are spending our money 
for the purposes that we seek to achieve. We certainly want a 
stable, democratic Pakistan. But, at the same time, I find it 
increasingly difficult to go back to my home State of New 
Jersey or to chair the subcommittee on our foreign assistance, 
and say that, $10 billion later, we would consider the amount 
of money that we spend, for what we achieved, a success. I 
personally would not consider it a success.
    So, I think we need to do a lot better, as you look at this 
next budget. And I would really urge a--some better metrics 
than what we have today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    You've been very patient and responsive, Mr. Ambassador. 
Thank you very much.
    I was just having--and I'll conclude by saying--a brief 
conversation with the chief of staff, here--and I will follow 
up with Senator Lugar--but our hope is that we may be able to 
get together a consensus piece of--with the help of the 
chairman of the subcommittee--consensus piece of legislation 
relative to economic assistance, both in the supplemental, 
possibly, but also for FY09 budget, based on what I've heard 
here today, through the leadership of the subcommittee chair--I 
think there's a consensus here, and maybe be able to get, in 
that process, before we produce that for a markup here, have an 
opportunity to sit with you, or whomever you designate, Mr. 
Ambassador, to talk about the outlines of such a proposal.
    Again, I don't say that, at this point, about--arguing 
about whether or not what was proposed is appropriate or not 
appropriate. Things have changed. Things have changed in the 
last 2 weeks. And I hope we can agree on taking advantage of 
that change.
    Again, I thank you, Mr. Ambassador. Do you have any closing 
comments you wish to make, or--the floor is yours, if you do.
    Ambassador Negroponte. Just two points, Mr. Chairman, part 
of it answering the points that Mr. Menendez made, which--I 
understand his points. The only thing to say in reply is that 
it is a vital area, particularly the Afghanistan-Pakistan 
border. I believe Pakistan is the third-largest recipient of 
assistance from the United States, and, I think, deservedly so.
    And then, the other point I'd like to associate myself with 
is the point that both the chairman and, I think, by 
implication, Senator Nelson made, when he was asking the 
question--I do think that whatever we do with Pakistan, and for 
Pakistan, ought to be over the longer term. I think that our 
relationship with Pakistan in past years, particularly in the 
1980s and 1990s suffered from peaks and valleys and ups and 
downs. And I think that whatever we can do to put it on as a 
sustainable a basis as possible would be to the good for this 
vital country in a vital region of the world.
    The Chairman. I'm glad to hear you say that. And I would 
note, for the record--I know you--we all know this--but, that 
transactional relationship occurred with Democratic Presidents, 
as well as Republican Presidents, so it's not like--I just hope 
we do not make the mistake we, in hindsight, made with regard 
to Afghanistan, as it affects Pakistan, that, after the 
Russians were defeated, we essentially walked away. It would be 
a real disaster to do that. I think everybody is aware of that.
    And so, this is one of the areas, with your leadership, Mr. 
Ambassador, we really look forward to working with you. I think 
we can do something very positive here, and try to do it 
quickly.
    I thank you. And I thank my colleagues.
    The hearing is adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]
                              ----------                              


                   Material Submitted for the Record


  Prepared Statement of Hon. Barack Obama, U.S. Senator From Illinois

    Mr. Chairman, thank you for holding this hearing on ``U.S. Policy 
Options in Post-Election Pakistan.'' I also appreciate Deputy Secretary 
Negroponte's willingness to discuss his assessments related to this 
important topic.
    On February 18, a strong majority of the Pakistani people called 
for a new direction for their country. The two main opposition parties 
that made substantial gains in the parliamentary elections are moderate 
and have expressed a willingness to work with the United States. The 
stark choice that has been presented to us by the Bush administration--
between President Musharraf on the one hand, and violent Islamists on 
the other--was shown to be false.
    This development presents an important opportunity for the United 
States to change its policy toward Pakistan. For years, U.S. policy has 
valued stability in Pakistan over the advancement of democracy--as a 
result, we have gotten neither. Our unconditional embrace of President 
Musharraf has stifled democratic reforms, stoked anti-American 
sentiment, and contributed to a level of instability that has hampered 
Pakistan's efforts to combat terrorism and extremism. Meanwhile, the 
Pakistani Government has failed to root out the al-Qaeda and Taliban 
sanctuary in its northwest tribal region.
    To advance American interests and American values, we need a policy 
toward Pakistan that promotes the interests of the Pakistani people, 
not just the interests of Pakistan's President. All citizens of the 
world have a fundamental right to live in freedom, and to express 
themselves through robust democratic institutions. To the extent that 
violence, censorship, and intimidation threaten to destabilize Pakistan 
and jeopardize its progress toward democracy, American national 
interests within Pakistan are more likely to suffer.
    Pakistan remains a critically important ally in the fight against 
al-Qaeda, and for this reason, I have been proud to support significant 
investments in its stability and economic development over the last 
several years. However, a more effective relationship with Pakistan can 
be established if we set sensible conditions on our foreign aid to 
Pakistan to ensure that it is advancing democracy and combating
al-Qaeda with an effective approach.
    I believe we should continue funding for Pakistan in the areas of 
counterterrorism, public education, health, microenterprise 
development, humanitarian assistance, and democracy and rule of law 
programs. However, I believe we should temporarily suspend all other 
funding for Pakistan until we are sure that U.S. funds are not being 
used to repress democracy in Pakistan, and we should make military aid 
conditional on the Pakistani Government making substantial progress in 
closing down terrorist training camps, evicting foreign fighters, and 
preventing the Taliban from using Pakistan as a staging area for 
attacks in Afghanistan.
    If the Pakistani Government increases investments in secular 
education to counter radical madrasas, we should also increase 
America's financial commitment in this area. If the Pakistani 
Government does take action to combat al-Qaeda in its northwest tribal 
region, we must help Pakistan invest in the provinces along the Afghan 
border, so that the extremists' program of hate is met with one of 
hope.
    A Pakistan that is firmly rooted in seeking democracy and 
demonstrable progress in combating terrorism will be better for the 
people of Pakistan, and for American national security. And in the long 
term, a democratic ally will be a stronger ally in the fight against 
al-Qaeda and its affiliates.
    I will continue to press for a U.S. policy that demonstrates a 
commitment to the people of Pakistan, and a more effective approach to 
foreign assistance to promote democracy and roll back the forces of 
extremism.
                                 ______
                                 

  Responses of Deputy Secretary of State John Negroponte to Questions 
          Submitted for the Record by Senator Russell Feingold

    Question. During last week's hearing you noted that the final 
distribution decisions on coalition support funding is made by the 
Department of Defense, not by the United States Embassy in Pakistan, 
even though the Embassy does have a role to play. Senator Biden noted 
that the State Department has to sign off first, which you agreed with. 
In the interest of clarifying ``chief of mission'' authorities in 
circumstances such as our reimbursement to the Pakistani Government of 
such large sums of U.S. taxpayer dollars like the Coalition Support 
Funds, can you clarify what the specific process is and how decisions 
are made regarding what is and what is not reimbursed and who has final 
clearance of any reimbursement?

    Answer. The Government of Pakistan submits Coalition Support Fund 
claims through the Office of the Defense Representative at the U.S. 
Embassy in Islamabad where they are reviewed for completeness and 
accuracy, and valid claims are then endorsed. Claims are then reviewed 
by U.S. Central Command which validates that Pakistan provided support 
to war on terror objectives and U.S. operations and that costs would 
not have been incurred by Pakistan otherwise. Next, the Office of the 
Secretary of Defense (Comptroller) evaluates the claims to ensure costs 
are reasonable compared with U.S. costs for the same services and 
operations to show cost savings and are credible based on the 
documentation provided. The claims are then coordinated with the 
Department of State, which must concur on the reimbursement and confirm 
that it is in line with U.S. foreign policy objectives, is consistent 
with U.S. Government National Security Strategy, and does not 
unfavorably affect the balance of power in the region. Concurrently, 
the Office of Management and Budget must give concurrence. After 
receiving Department of State concurrence, the Office of the Secretary 
of Defense (Comptroller) prepares a determination for the Deputy 
Secretary of Defense to sign a notification to Congress. Once the 15-
day congressional notification period expires, the Comptroller releases 
funds to the Defense Security Cooperation Agency for payment to 
Pakistan.
    Decisions regarding what is and what is not reimbursed are made 
throughout the auditing process, which takes place at the three 
entities noted above--the Office of the Defense Representative at the 
Embassy, U.S. Central Command, and the Office of the Secretary of 
Defense (Comptroller).
    Final clearance on the reimbursement is provided by the Deputy 
Secretary of Defense and is dependent upon concurrence from the 
Department of State. In addition Pakistan can only receive Coalition 
Support Funds reimbursement after a 15-day congressional notification 
period. Thus, congressional approval is also a necessary part of the 
process.
    We note that the Defense Department has provided detailed 
information on Coalition Support Funds claims processed for Pakistan 
since 2001 to Congress.
    Our understanding is that the information has been made available 
to members of this committee.

    Question. Can you expand on how the State Department here in 
Washington engages with the U.S. Embassy in Pakistan regarding both 
major and minor policy decisions? How regularly are there back and 
forth conversations, and how much input does the Embassy have into any 
policy changes that might occur? How frequently does the U.S. Embassy 
in Pakistan speak with the U.S. Embassy in Afghanistan and what 
mechanisms exist to ensure they can communicate regularly?

    Answer. The Department and U.S. Embassy in Islamabad and its 
consulates in Lahore, Peshawar, and Karachi work closely as a single 
team to develop and implement policies. The impressive array of formal 
reporting that the Department receives daily from these posts and the 
numerous e-mails exchanged guides the policymaking process on major and 
minor issues. The Department's Bureau for South Asia and Central 
Affairs Front Office, Office of Pakistan and Bangladesh Affairs, and 
Office of Afghanistan Affairs consult daily with posts via phone and e-
mail to receive the latest updates on political events in Pakistan and 
discuss policy developments in Washington. A large number of Department 
offices are also involved when issues relate to their responsibilities 
and expertise. The Bureau for South Asia and Central Affairs and 
Embassy Islamabad began holding a bi-weekly video conference to discuss 
overall strategy and policy priorities, among other specific issues. 
Department policy moves forward only with Embassy guidance and input--
initiatives, both major and minor, are determined with the guidance and 
input of the Ambassador and her staff who communicate closely with the 
Government of Pakistan and other elements of Pakistani society.
    Embassies Islamabad and Kabul work closely together. In addition to 
regular consultation between our two Ambassadors in Afghanistan and 
Pakistan, Embassy personnel monitor cable traffic from both posts 
closely and report back and forth as needed. Numerous e-mails are 
exchanged daily. Border Coordinator positions in Islamabad, Kabul, and 
Washington serve to increase our ability to focus on the transborder 
region and advance our goal of drawing the Afghan and Pakistani 
Governments into cooperative projects to address that region's 
problems.

    Question. In last week's hearing you stated that the State 
Department is in a ``wait and see mode'' as far as working with 
whatever government officially emerges from the recent elections. To 
that end, could you be more specific with regards to what kinds of 
scenarios the State Department is developing to react to any changes a 
new government might make to existing institutions, including the 
Pakistani military. If President Musharraf does step down--or is forced 
to react--how will State react?

    Answer. The two largest parties in Pakistan's February 18 
parliamentary elections, the Pakistan People's Party and the Pakistan 
Muslim League-Nawaz, formed a coalition government in March 2008. We 
are engaging with the new government to pursue our critical national 
interests and to strengthen and build a broad-based, long-term 
relationship between our two countries. Most recently, President Bush 
met with Prime Minister Gilani in Sharm el-Sheikh, Egypt, on May 18, 
and several senior U.S. officials have met government leaders since 
March.
    We encourage all political parties to work together to continue 
Pakistan's development as a progressive, moderate, and stable country 
at a key geopolitical crossroads. Pakistan faces tough economic, 
governance, and security challenges that affect the Pakistani people on 
a daily basis. We speak regularly with Pakistan's leaders about 
developing solutions to those real and pressing problems.
    Moving forward, one of our major objectives is to help Pakistan 
develop its civilian institutions, in order to build a more stable 
relationship between its civilian and military establishments. The 
military has made several visible efforts to demonstrate its commitment 
in this regard. For example, in April, Army chief General Kayani 
formally briefed Prime Minister Gilani and the Cabinet on security 
developments in the FATA, demonstrating the military's acknowledgment 
of the civilian government's leadership role. Another positive step we 
have seen in this direction is that the Pakistani military recently 
recalled all military personnel working in civilian government 
positions to return to military jobs.
    Pakistan's democratic development is an on-going process that we 
support but do not seek to drive. It is up to the Pakistani people and 
their elected leaders to choose a path toward democracy that achieves 
peace and stability and advances freedom and prosperity. We will 
continue to work closely with Pakistans to pursue our national 
interests and to strengthen our countries' long-term partnership.

    Question. I have long supported international volunteering--both 
for the personal benefits accrued to the individual volunteers and the 
broader benefits, such as a more positive and accurate image of 
Americans and of America. The U.S. Agency for International Development 
(USAID) has established an office of Coordinator for Volunteer Service, 
strengthening the agency's management of volunteer programs sponsored 
or supported by USAID. One example of these programs is the Farmer-to-
Farmer program, authorized by Congress and managed by USAID, which 
enables U.S. agricultural experts to assist developing country farmers 
through sharing modern practices and technologies. Can you discuss the 
nature, extent, and benefits of these types of programs in Pakistan? 
What recommendations does USAID have to increase Americans' engagement 
in areas of development need in Pakistan?

    Answer. The U.S. Agency for International Development established 
the Office of Coordinator for Volunteer Service to better align three 
agency-managed volunteer programs: The Farmer-to-Farmer program; the 
Volunteers for Economic Growth Alliance; and Volunteers for Prosperity.
    Like the Farmer-to-Farmer program, Volunteers for Economic Growth 
Alliance is housed within USAID's Bureau for Economic Growth, 
Agriculture and Trade. Established by USAID in 2004, Volunteers for 
Economic Growth Alliance utilizes skilled volunteers with experience in 
a variety of sectors through a consortium of 15 U.S.-based 
nongovernmental organizations to support the agency's field activities 
in economic growth. Through December 2007, Volunteers for Economic 
Growth Alliance deployed 149 American volunteers on 194 assignments.
    Volunteers for Prosperity is an interagency initiative that was 
established in September 2003 by President Bush through executive order 
to promote greater international volunteer service by skilled American 
professionals. Led by the Volunteers for Prosperity Office of USAID's 
Bureau for Democracy, Conflict and Humanitarian Assistance, Volunteers 
for Prosperity has (as of September 30, 2007) helped to mobilize 74,000 
American professionals--doctors, nurses, engineers, teachers, business 
people, and others--in support of the nation's global health and 
prosperity agenda through a network of over 250 U.S. companies and 
nonprofit organizations.
    Currently, the Farmer-to-Farmer program has no involvement in 
Pakistan. None of the agreements awarded in 2003 to eight implementing 
U.S. nongovernment organizations proposed work in Pakistan. From 2004 
to 2008, the Farmer-to-Farmer program will operate in 40 countries, 
providing over 3,000 volunteer technical assistance assignments 
averaging 3\1/2\ weeks duration.
    USAID believes that any measures for increasing Americans' 
engagement in areas of development need in Pakistan should include 
consideration of the current situation regarding the security and 
safety of Americans. The State Department has an advisory in effect for 
Americans traveling in Pakistan because they have been targeted for 
violence in various locations throughout the country.
    USAID believes that one option for increasing Americans' engagement 
in Pakistan's development could involve strengthening Volunteers for 
Prosperity. There is ample justification for a stronger Volunteers for 
Prosperity program. Already the most active of the three in Pakistan--
and operating on a considerably smaller budget than either of its 
peers--Volunteers for Prosperity may be particularly well-suited for 
increasing Americans' engagement in the development of Pakistan because 
of its focus and experience managing obstacles facing Americans seeking 
to volunteer abroad.
    Volunteers for Prosperity is helping to engage more Americans in 
development throughout the world by addressing significant obstacles to 
their volunteer service.
    Given its focus and utility in addressing obstacles to volunteer 
service abroad, providing Volunteers for Prosperity with greater 
authority and scope as well as additional resources could prove a 
worthwhile option for increasing Americans' engagement in Pakistan's 
development as well as the development of other countries.
                                 ______
                                 

              Articles Submitted by Senator Barbara Boxer

                   [From The Guardian, Feb. 28, 2008]

       Pakistani Military ``Misspent up to 70% of American Aid''

U.S. EMBASSY STAFF BELIEVE EXPENSES CLAIMS--INFLATED ARMED FORCES DENY 
                         SERIOUS IRREGULARITIES

                     (By Declan Walsh in Islamabad)

    America's massive military aid package to Pakistan is being 
scrutinised after allegations that as much as 70% of $5.4bn in 
assistance to the country has been misspent.
    Since 2002 the U.S. has paid the operating costs of Pakistan's 
military operations in the tribal belt along the Afghan border, where 
Taliban and al-Qaida fighters are known to shelter.
    Pakistan provides more than 100,000 troops and directs the battles; 
the U.S. foots the bill for food, fuel, ammunition and maintenance. The 
cash payments--averaging $80m (=40m) a month--have been a cornerstone 
of U.S. support for Pakistan's president, Pervez Musharraf.
    But over the past 18 months, as militants have seized vast areas of 
the tribal belt and repelled a string of Pakistani offensives, the 
funding has come under the microscope.
    American officials processing the payments at the U.S. Embassy in 
Islamabad have concluded that the Pakistani expense claims have been 
vastly inflated, two western military officials have told the Guardian. 
``My back of envelope guesstimate is that 30% of the money they 
requested to be reimbursed was legitimate costs they had expended,'' 
said one, speaking on condition of anonymity.
    The official said that the U.S. did not know what had happened to 
the remaining 70% of the funds--amounting to approximately $3.8bn--but 
suspected that some of the money might have been spent on F-16 fighter 
jets or ``a new house for an army general.''
    Other than those possibilities, he said, at least half the money 
was thought to have disappeared. ``Who knows, the roads on Constitution 
Avenue [in Islamabad] may have been paved with part of this money,'' he 
added.
    The Pakistani military denied the claims. ``As far as the military 
is concerned, I can assure you we have full account of these things,'' 
said its spokesman, Major General Athar Abbas. He admitted that there 
had been some American complaints but denied serious irregularities. 
``Yes there are minor issues they keep raising, but at no stage have we 
received any formal complaint from any official channel.''
    The controversy highlights not only strains in the relationship 
between Washington and Islamabad but also the limits of George Bush's 
``war on terror.'' Pakistani officials say they have lost more than 
1,000 soldiers in the tribal areas since 2002--twice as many as the 
U.S. has lost in Afghanistan--and caught or killed more than 1,000 
``terrorists.''
    U.S. officials, who have propped up Musharraf as militants have 
rampaged across the tribal belt and beyond, feel they have received bad 
value for money.
    Pakistani civilians are angry with both sides. Anti-American 
sentiment has hit a new high, while anger towards Musharraf contributed 
to the thrashing his party received in last week's election.
    The scale of U.S. military assistance was shrouded in secrecy for 
years. When it became public, so did its extraordinarily lax accounting 
procedures.
    Every month the Pakistani military submits expense claims averaging 
$80m to the U.S. embassy in Islamabad. No receipts are provided to 
support the claims, and the money is paid directly into the finance 
ministry.
    Poorly accounted-for claims for payment caused the U.S. to suspend 
payouts several months last spring, a second western official said. The 
Washington Post reported last week that a claim for ``roads and 
tracks'' from the Pakistani navy had been rejected. Abbas claimed that 
the navy was ``also involved in the war on terror'' in having to 
``guard against infiltration of arms and explosive from abroad.''
    The scale of the problem has led U.S. officials to share their 
worries with other allies in Pakistan. American politicians have used 
the payments to exert pressure on Musharraf. On the eve of last week's 
vote, Democrat Senator, Joe Biden, head of the Senate Foreign Relations 
Committee, warned that funding could be slashed if there was widespread 
rigging. But analysts and officials say the U.S. is unlikely to turn 
off the cash tap any time soon given Pakistan's importance in the hunt 
for Osama bin Laden and other foreign fugitives.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
 Executive Summary From ``Terror-Free Tomorrow: The Center for Public 
                               Opinion''

    In a resounding setback for American policy, Pakistanis strongly 
favor their own government not fighting against al-Qaeda and the 
Taliban, but negotiating with them instead. Public support for al-Qaeda 
is also gaining ground since earlier this year.
    Important Parliamentary by-elections are scheduled in Pakistan for 
June 26. In the first poll before the elections, our survey shows that 
Nawaz Sharif is now the most popular political leader in Pakistan. Mr. 
Sharif's party, the PML-N, would emerge as the clear winner in any 
national contest, far eclipsing the current largest party in 
Parliament, the Pakistan Peoples Party (PPP).
    These are among the many findings of a new and extensive nationwide 
public opinion survey from May 25 to June 1, 2008, across Pakistan, 
covering both urban and rural areas and all provinces. The survey, with 
face-to-face interviews of 1,306 Pakistanis age 18 or older and a 
margin of error of 3 percent, was conducted by Terror Free Tomorrow: 
The Center for Public Opinion, in collaboration with the New America 
Foundation, and field work inside Pakistan by the Pakistan Institute 
for Public Opinion, an affiliate of Gallup Pakistan. The survey is the 
third nationwide poll over the past 9 months conducted by Terror Free 
Tomorrow and Gallup Pakistan.

   PUBLIC SUPPORT FOR AL-QAEDA, THE TALIBAN AND BIN LADEN INCREASES; 

     pakistanis decisively favor negotiations over military action
    Half of all Pakistanis want their government to negotiate and not 
fight al-Qaeda, with less than a third saying military action by the 
Pakistani Government against al-Qaeda is called for. (For Pakistani 
Taliban, 58 percent favor negotiating to 19 percent for military 
action.)
    Pakistan is considered by most national security experts to be the 
home base of Osama bin Laden, al-Qaeda and many Taliban fighters. From 
a safe haven in the border areas of Pakistan, they are free to train, 
plan and launch attacks inside Afghanistan and elsewhere. Indeed, last 
week, Admiral Michael Mullen, Chair of the Joint Chiefs of Staff, said 
that the planning to hit America itself with another terrorist attack 
is now taking place--and that it would come from Pakistan.
    The new Pakistani civilian government has begun a controversial 
policy of negotiating with certain Pakistani Taliban fighters--though 
not with al-Qaeda.
    In stark opposition to American policy, the Pakistani people 
themselves would go even further than their own government and not only 
negotiate with Pakistani Taliban fighters, but with both Arab al-Qaeda 
and Afghan Taliban fighters as well, decisively opposing any military 
action.
    Even before the latest American military incursion (which occurred 
after our poll was complete), a mere 12 percent of Pakistanis supported 
any unilateral American military action against al-Qaeda fighters 
inside Pakistan. Strong opposition to the U.S. military has also 
intensified since earlier this year.
    Favorable opinion toward al-Qaeda is mounting inside Pakistan. A 
third of Pakistanis now voice a positive view, nearly double the 
percentage from earlier this year. Similarly, for bin Laden, 34 percent 
currently have a favorable opinion, up from 24 percent in January (but 
still below the 46 percent who thought so in August 2007). Trust for 
American motives has sunk to new lows: Three quarters of Pakistanis say 
that the real purpose of the U.S.-led war on terror is to weaken the 
Muslim world and dominate Pakistan.
    Significantly, when asked who was most responsible for the violence 
that is occurring in Pakistan today, more than half (52 percent) blame 
the United States--only 8 percent al-Qaeda fighters.
    Despite the spate of suicide bombings that have shaken Pakistan at 
the apparent hands of al-Qaeda and the Taliban, Pakistanis see the 
United States as posing the greatest threat to their own personal 
safety. Forty-four percent of Pakistanis think the United States poses 
the greatest threat to their personal safety (traditional enemy India 
is next at 14 percent). By contrast, a mere 6 percent feel al-Qaeda is 
a threat, with 4 percent the Afghan Taliban and 8 percent the Pakistani 
Taliban.
         pakistanis agree with al-qaeda goals, but not tactics
    Al-Qaeda's considerable goodwill inside Pakistan is generated by 
their perceived goals, which Pakistanis say they largely share. More 
than any other goal, Pakistanis think that standing up to America is 
the goal of bin Laden and al-Qaeda--and 57 percent agree with that al-
Qaeda goal. Likewise, the most important reason for backing al-Qaeda/
bin Laden for almost two-thirds of their supporters was the perception 
that they stand up to America and lead a defensive jihad against it.
    Pakistanis, however, continue to oppose suicide attacks, with 14 
percent thinking these attacks can often or sometimes be justified. 
Pakistani opposition to suicide attacks extends to whoever is the 
intended target, with opposition equally highest to both Pakistani and 
American civilians and dropping slightly for Pakistani and American 
military personnel.

 BEFORE UPCOMING BY-ELECTIONS, NAWAZ SHARIF AND THE PML-N OVERTAKE THE 
               PPP AS THE MOST POPULAR PARTY IN PAKISTAN

    In another dramatic reversal of Pakistani public opinion, Nawaz 
Sharif has emerged, by far, as the most popular political leader in 
Pakistan today. In advance of the June 26 Parliamentary by-elections in 
Pakistan, a striking 86 percent of Pakistanis have a favorable opinion 
of Mr. Sharif, a former Pakistani Prime Minister with conservative 
Islamist ties that have made some American policymakers indicate 
concern.
    Mr. Sharif has also seen a steady rise in his popularity, from 57 
percent favorable in our August 2007 poll, to 74 percent in January 
2008 and 86 percent today. As significantly, those with a very 
favorable opinion have almost doubled since January 2008 to 43 percent 
now--a level no other political figure in Pakistan comes even close to. 
(By comparison, Mr. Zardari, leader of the PPP, just has a 13 percent 
very favorable rating.)
    If national elections were held today, Mr. Sharif's party, the PML-
N, would emerge as the clear winner, garnering 42 percent of the vote 
to the PPP's 32 percent. The PML-N has witnessed a significant surge in 
popularity. From only 15 percent saying they would vote for them in our 
August 2007 poll, to 25 percent in our preelection January poll (which 
mirrored the actual election results), the party today stands at 42 
percent, the most popular party in Pakistan.
pakistanis hold their government responsible for the high food and fuel 

  PRICES; WANT INDEPENDENT JUDICIARY AND BLAME PPP AND MUSHARRAF FOR 
                     IMPASSE OVER RESTORING JUDGES

    The reasons for the rise of Mr. Sharif and the declining fortunes 
of others inside Pakistan can be found in widespread Pakistani 
discontent with the status quo.
    The high cost of food and fuel is hitting ordinary Pakistanis hard. 
An overwhelming 86 percent of Pakistanis have faced increasing 
difficulty in obtaining flour for their daily food consumption--
primarily because of high prices. And Pakistanis consider their own 
government most responsible.
    Similarly, 81 percent have been affected by the high price of fuel, 
with again, in their view, the Pakistani Government most responsible, 
only for fuel closely followed by American and Western oil companies.
    Overall, just 20 percent of Pakistanis think their country is 
heading in the right direction. With the highest priority Pakistanis 
have for their government (even slightly higher than the economy) an 
independent judiciary, most Pakistanis now blame the PPP and President 
Musharraf for failing to restore the judges sacked by Mr. Musharraf 
last fall. Almost three-quarters of Pakistanis want Mr. Musharraf to 
resign and if he doesn't, to be removed by Parliament as President.
    Dissatisfaction with the current civilian government does not mean, 
however, that the public wants the Pakistani military to return to 
political affairs. In our survey last August, 45 percent approved of 
the military playing a role in the political and economic affairs of 
the country. That number has now dropped to 28 percent, while those who 
disapprove have steadily risen from 46 percent last August to 64 
percent now, with those strongly disapproving doubling to over half.

         OPINION OF THE U.S. STILL NEGATIVE, BUT OPEN TO CHANGE

    While attitudes towards the United States and particularly the 
American war on terror remain strongly negative, Pakistanis say that a 
change in American policy toward Pakistan would bring about a stunning 
change in Pakistani public opinion toward the United States.
    Two-thirds of Pakistanis said that policies ranging from increased 
American business investment, free trade, educational aid, disaster 
assistance, medical care/training and increased U.S. visas for 
Pakistanis would significantly improve their opinion of the United 
States.
    More than two-thirds of Pakistanis who now have favorable views of 
al-Qaeda and bin Laden said they would also significantly change their 
opinion of the U.S. with these new American policies.
    Indeed, the number of Pakistanis who are now willing to view the 
United States more positively with new American actions is higher than 
at any other time that we have measured in our surveys.
                                 ______
                                 

                   [From FOXNews.com, Jan. 23, 2008]

                Musharraf: Pakistan Isn't Hunting Usama

    Pervez Musharraf says he still gets the question a lot: When will 
Usama bin Laden and his top deputy be caught? The Pakistani president 
insists it's more important for his 100,000 troops on the Afghan border 
to root out the Taliban than search for Al Qaeda leaders.
    That bin Laden and Ayman al-Zawahiri are still at large ``doesn't 
mean much,'' the former general said Tuesday on the second day of a 
swing through Europe. He suggested they are far less a threat to his 
regime than Taliban-linked militants entrenched in Pakistan's west.
    Bin Laden and al-Zawahiri are believed to be hiding somewhere in 
the lawless tribal areas along Afghanistan's frontier with Pakistan.
    ``The 100,000 troops that we are using . . . are not going around 
trying to locate Usama bin Laden and Zawahiri, frankly,'' Musharraf 
told a conference at the French Institute for International Relations. 
``They are operating against terrorists, and in the process, if we get 
them, we will deal with them certainly.''
    A U.S. ally in its war on extremist groups, Musharraf has come 
under increasing pressure following the assassination of opposition 
leader Benazir Bhutto last month and for his brief declaration of 
emergency rule in early November.
    Musharraf, who as commander of Pakistan's military seized power in 
a bloodless coup in 1999, said the remnants of Afghanistan's former 
Taliban regime and its Pakistani sympathizers are the ``more serious 
issue'' for both countries.
    But he said there was ``zero percent chance'' that Al Qaeda, the 
Taliban and their Pakistani allies could defeat his 500,000-strong army 
or that Islamic militants could win control of the government in Feb. 
18 parliamentary elections.
    As part of the ``multi-pronged strategy'' against terrorists, 
Pakistan has erected fences ``selectively'' and set up 1,000 
checkpoints along the Afghan border in an effort to stop militants from 
using the areas to launch attacks inside the neighboring nation, he 
said.
    Musharraf credited cooperation between Pakistani intelligence 
services and the CIA, both of whom believe that Pakistani militant 
leader Baitullah Mehsud was the mastermind of the Dec. 27 gun and 
suicide bomb attack that killed Bhutto.
    But in Washington, the State Department's counterterrorism chief, 
Dell Dailey, said the Bush administration was displeased with ``gaps in 
intelligence'' received from Pakistan about the activities of extremist 
groups in the tribal regions.
    ``We don't have enough information about what's going on there. Not 
on Al Qaeda. Not on foreign fighters. Not on the Taliban,'' he said.
    Dailey, a retired Army lieutenant general with extensive background 
in special operations, said Pakistan needs to fix the problem. He said 
the U.S. wasn't likely to conduct military strikes inside Pakistan on 
its own, saying that would anger many Pakistanis.
    Musharraf played down the impact of recent attacks by extremists in 
the border region of South Waziristan, calling them ``pinpricks'' that 
his government must manage--not a sign of a resurgent Taliban.
    Attacks on forts in that district over the last month--including a 
battle Tuesday--have fanned concerns that militants with links to Al 
Qaeda and the Taliban may be gaining control in the region.
    Pakistan's army said fighting at the fort and another clash killed 
at least seven paramilitary border guards and 37 militants Tuesday.
    The border region emerged as a front line in the war on extremist 
groups after Musharraf allied Pakistan with the U.S. following the 
Sept. 11 terror attacks. Washington has given Pakistan billions of 
dollars in aid to help government forces battle militants.
    Rising violence in the border region and a series of suicide 
attacks across Pakistan that killed hundreds in recent months have 
added to uncertainty before next month's elections, which many people 
predict will further weaken Musharrafs grip on power.
    Despite turmoil at home, Musharraf defended his visit to four 
European countries, saying he wasn't concerned about the stability of 
his regime while he was away.
    ``I can assure you that nothing will happen in Pakistan,'' he said. 
``We are not a banana republic.''
    French President Nicolas Sarkozy, who met privately with Musharraf 
on Tuesday, expressed support for Pakistan's fight with extremists and 
promised to press for increased European Union aid when France takes 
over the bloc's rotating presidency in July, Sarkozy's office said.

                                  <all>

</pre></body></html>
